<html>
<title> - PROTECTING INFANTS: ENDING TAXPAYER FUNDING FOR ABORTION PROVIDERS WHO VIOLATE THE LAW</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





PROTECTING INFANTS: ENDING TAXPAYER FUNDING FOR ABORTION PROVIDERS WHO 
                            VIOLATE THE LAW

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2015

                               __________

                           Serial No. 114-75



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov




                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-411 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          














                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California7
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
BRETT GUTHRIE, Kentucky              GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            G.K. BUTTERFIELD, North Carolina
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
CATHY McMORRIS RODGERS, Washington   JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)












































                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     2
    Prepared statement...........................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
    Prepared statement...........................................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     7
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    10
Hon. Eliot L. Engel, a Representative in Congress from the State 
  of New York, prepared statement................................   103

                               Witnesses

Charmaine Yoest, Ph.D., President and Chief Executive Officer, 
  Americans United for Life......................................    11
    Chart, ``Planned Parenthood Foundation of America,'' Source: 
      The Center for Medical Progress............................    14
    Prepared statement...........................................    16
    Additional material submitted for the record \1\
    Answers to submitted questions...............................   175
M. Casey Mattox, Senior Counsel, Alliance Defending Freedom......    34
    Prepared statement...........................................    36
    Additional material submitted for the record \2\
Judy Waxman, Attorney............................................    57
    Prepared statement...........................................    59
    Answers to submitted questions...............................   180

                           Submitted Material

Discussion Draft, H.R. ___, the Protecting Infants Born Alive 
  Act, submitted by Mr. Pitts....................................   104
Discussion Draft, H.R. ___, the Protect Infants from Partial-
  birth Abortion Act, submitted by Mr. Pitts.....................   107
Memorandum of September 9, 2015, from Committee Democratic Staff 
  to Subcommittee on Oversight and Investigations Democratic 
  Members and Staff, ``Update on the Committee's Ongoing 
  Investigation of Planned Parenthood Federation of America,'' 
  submitted by Ms. DeGette.......................................   110
Article of May 20, 2015, ``How Texas Lawmakers Continue To 
  Undermine Women's Health,'' by Kinsey Hasstedt, Health Affairs 
  Blog, submitted by Mr. Green...................................   128
Report by the Texas Health and Human Services Commission, ``Texas 
  Women's Health Program: Savings and Performance Reporting,'' 
  January 2015, submitted by Mr. Green...........................   131

----------
\1\ The information has been retained in committee files and also is 
available at  http://docs.house.gov/meetings/IF/IF14/20150917/103957/
HHRG-114-IF14-Wstate-YoestC-20150917-SD002.pdf.
\2\ The information has been retained in committee files and also is 
available at  http://docs.house.gov/meetings/IF/IF14/20150917/103957/
HHRG-114-IF14-Wstate-MattoxC-20150917-SD001.pdf.
Article of September 2, 2015, ``Planned Parenthood, Community 
  Health Centers, And Women's Health: Getting The Facts Right,'' 
  by Sara Rosenbaum, Health Affairs Blog, submitted by Mr. Green.   140
Article of August 24, 2015, ``Baby In Undercover Anti-Abortion 
  Video Was Stillborn, Not Aborted, Producer Says,'' by Ray 
  Nothstine, Christian Post, submitted by Ms. Castor.............   143
Article of August 21, 2015, ``Anti-abortion video showed 
  stillborn baby--not fetus,'' by Sarah Ferris, The Hill, 
  submitted by Ms. Castor........................................   145
Article of September 4, 2015, ``Anti-abortion leader says Texas 
  funding women's health services at historically high levels,'' 
  by W. Gardner Selby, PolitiFact Texas, submitted by Mr. Burgess   146
Article of August 17, 2015, ``If Planned Parenthood Loses 
  Government Funding, Here's a Map of Health Clinics That Could 
  Take Its Place,'' by Kelsey Harkness, The Daily Signal, 
  submitted by Mr. Burgess.......................................   157
Article of September 16, 2015, ``What Texas PolitiFact Won't 
  Admit about the State's Defunding of Planned Parenthood,'' by 
  Michael J. New, National Review, submitted by Mr. Burgess......   162
Report by the Texas Health and Human Services Commission, ``Texas 
  Women's Health Program Provider Survey,'' January 7, 2013, 
  submitted by Mr. Burgess.......................................   164
Letter of September 17, 2015, from National Health Law Program 
  and National Women's Law Center to Representatives, submitted 
  by Mr. Kennedy.................................................   173

 
PROTECTING INFANTS: ENDING TAXPAYER FUNDING FOR ABORTION PROVIDERS WHO 
                            VIOLATE THE LAW

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2015

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2123, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Members present: Representatives Pitts, Guthrie, Barton, 
Shimkus, Murphy, Burgess, Blackburn, McMorris Rodgers, Lance, 
Griffith, Bilirakis, Long, Ellmers, Bucshon, Brooks, Collins, 
Upton (ex officio), Green, Engel, Capps, Schakowsky, 
Butterfield, Castor, Sarbanes, Matsui, Lujan, Schrader, 
Kennedy, Cardenas, and Pallone (ex officio).
    Also present: Representatives Westerman and DeGette.
    Staff present: Clay Alspach, Chief Counsel, Health; Gary 
Andres, Staff Director; David Bell, Staff Assistant; Sean 
Bonyun, Communications Director; Leighton Brown, Press 
Assistant; Karen Christian, General Counsel; Noelle Clemente, 
Press Secretary; Marty Dannenfelser, Senior Advisor, Health 
Policy, and Director of Coalitions; Jessica Donlon, Counsel, 
Oversight and Investigations; Charles Ingebretson, Chief 
Counsel, Oversight and Investigations; Peter Kielty, Deputy 
General Counsel; Emily Martin, Counsel, Oversight and 
Investigations; Katie Novaria, Professional Staff Member, 
Health; Graham Pittman, Legislative Clerk; Chris Sarley, Policy 
Coordinator, Environment and the Economy; Adrianna Simonelli, 
Legislative Associate, Health; Alan Slobodin, Deputy Chief 
Counsel, Oversight; Heidi Stirrup, Policy Coordinator, Health; 
Josh Trent, Professional Staff Member, Health; Jessica 
Wilkerson, Oversight Associate; Jeff Carroll, Democratic Staff 
Director; Waverly Gordon, Democratic Professional Staff Member; 
Tiffany Guarascio, Democratic Deputy Staff Director and Chief 
Health Advisor; Una Lee, Democratic Chief Oversight Counsel; 
Elizabeth Letter, Democratic Professional Staff Member; Rachel 
Pryor, Democratic Health Policy Advisor; Timothy Robinson, 
Democratic Chief Counsel; Samantha Satchell, Democratic Policy 
Analyst.
    Mr. Pitts. The subcommittee will come to order. I apologize 
for starting late. We were on the floor voting, so have just 
concluded that. And I note that we have a large audience today.
    Today's hearing topic is one that we all have strong 
feelings about. I respectfully ask that the audience maintain 
decorum so that we can all hear the testimony of the witnesses 
and the questions of our members, and I thank you for your 
courtesy.
    The Chair will recognize himself for an opening statement.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Earlier this summer, on July 15, 2015, many Americans 
learned for the first time about some of the torturous and 
gruesome practices in abortion clinics related to the 
destruction of unborn babies. In recent weeks, our Nation and 
our Nation's capital has reengaged in an examination about the 
purveyors of abortion and their grisly practices.
    Abortion supporters cloak their support for abortion under 
the guise of women's right to choose. Yet they conveniently 
ignore the choices of thousands of unborn baby girls. How 
ironic that pro-choice advocates oppose letting unborn babies 
choose life.
    Yet today advances in medical practice and science confirm 
what we have long known from morality and common sense: Modern 
medicine treats the unborn child as a patient. Medical pioneers 
have made great breakthroughs in treating the unborn for 
generic problems, vitamin deficiencies, irregular heart 
rhythms, and other medical conditions. Science has shown us 
earlier and earlier glimpses of tiny, unborn human beings who 
can feel pain. What must such a baby feel when she is 
approached by doctors who come to kill rather than to cure?
    Anyone who sees the arms and legs of a tiny baby can hardly 
doubt whether it is a human being. The real question for all of 
us is whether that tiny human life has a God-given right to be 
protected by the law, the same right we have.
    Abortion is not just about the unborn child. It is about 
each of us. We cannot diminish the value of one category of 
human life, whether born or unborn, without diminishing the 
value of all human life. When we talk about abortion, we are 
talking about two lives, the life of the mother and the life of 
the unborn child.
    Medicaid, along with CHIP, pays for roughly half of all 
births in the United States each year. At the same time, 
Medicaid accounts for more than 15 percent of all healthcare 
spending in the United States and plays an increasingly large 
role in our Nation's healthcare system. Medicaid spending 
accounts for roughly 1 in every 4 dollars in an average State 
budget.
    Today, no Federal funds can be used to perform elective 
abortions, and yet many in the abortion industry still seek 
ways to use Government, taxpayer-funded resources to support 
their business. Some providers of elective abortions bill 
Medicaid and CHIP for other nonabortion-related healthcare 
services.
    I support efforts to amend the law and give States the 
discretion to exclude abortion providers from receiving 
taxpayer funding through Medicaid. States currently have broad 
authority to exclude from Medicaid and CHIP providers who 
violate program requirements, including reasons outlined in 
detail in Federal statute and in State laws. Courts have also 
upheld the ability of a State to exclude providers suspected of 
fraud or who are under investigation. One of our witnesses will 
discuss this in more detail.
    Given the factual record, some States have already taken 
steps to block taxpayer funding for providers, including 
Planned Parenthood, in light of some unconscionable atrocities, 
both apparent and documented, from State judicial and 
enforcement actions.
    No State should be forced to continue to include providers 
in their Medicaid program who commit reprehensible acts, and 
taxpayers should not be forced to pay for it. The committee 
wants to ensure States have appropriate flexibility of 
excluding from their Medicaid programs providers who are 
suspected of serious violations of Federal law.
    I look forward to hearing from our witnesses today.
    [The proposed legislation appears at the conclusion of the 
hearing.]
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    Earlier this summer, on July 15, 2015, many Americans 
learned for the first time about some of the tortuous and 
gruesome practices in abortion clinics related to the 
destruction of unborn babies. In recent weeks, our Nation--and 
our Nation's capital--has re-engaged in an examination about 
the purveyors of abortion and their grisly practices.
    Abortion supporters cloak their support for abortion under 
the guise of ``woman's right to choose.'' Yet they conveniently 
ignore the choices of thousands of unborn baby girls. How 
ironic that ``pro-choice'' advocates oppose letting unborn 
babies choose life.
    Yet, today, advances in medical practice and science 
confirm what we have long known from morality and common-sense. 
Modern medicine treats the unborn child as a patient. Medical 
pioneers have made great breakthroughs in treating the unborn 
for genetic problems, vitamin deficiencies, irregular heart 
rhythms, and other medical conditions.
    Science has shown us earlier and earlier glimpses of tiny 
unborn human beings who can feel pain. What must such a baby 
feel when she is approached by doctors who come to kill rather 
than to cure? Anyone who sees the arms and legs of a tiny baby 
can hardly doubt whether it is a human being. The real question 
for all of us is whether that tiny human life has a God-given 
right to be protected by the law--the same right we have.
    Abortion is not just about an unborn child, it is about 
each of us. We cannot diminish the value of one category of 
human life--whether born or unborn--without diminishing the 
value of all human life. When we talk about abortion, we are 
talking about two lives--the life of the mother and the life of 
the unborn child.
    Medicaid, along with CHIP, pays for roughly half of all 
births in the United States each year. At the same time, 
Medicaid accounts for more than 15 percent of all healthcare 
spending in the United States and plays an increasingly large 
role in our Nation's healthcare system. Medicaid spending 
accounts for roughly 1 in every 4 dollars in an average State 
budget.
    Today, no Federal funds can be used to perform elective 
abortions. And yet, many in the abortion industry still seek 
ways to use Government, taxpayer-funded resources to support 
their business. Some providers of elective abortions bill 
Medicaid and CHIP for other non-abortion related healthcare 
services. I support efforts to amend the law and give States 
the discretion to exclude abortion providers from receiving 
taxpayer funding through Medicaid.
    States currently have broad authority to exclude from 
Medicaid and CHIP providers who violate program requirements-
including reasons outlined in detail in Federal statute and in 
State laws. Courts have also upheld the ability of a State to 
exclude providers suspected of fraud or who are under 
investigation. One of our witnesses will discuss this in more 
detail.
    Given the factual record, some States have already taken 
steps to block State taxpayer funding for providers, including 
Planned Parenthood, in light of some unconscionable atrocities 
-both apparent and documented from State judicial and 
enforcement actions. No State should be forced to continue to 
include providers in their Medicaid program who commit 
reprehensible acts. And taxpayers should not be forced to pay 
for it.
    The committee wants to ensure States have appropriate 
flexibility of excluding from their Medicaid programs providers 
who are suspected of serious violations of Federal law. I look 
forward to hearing from our witnesses today, and I yield to the 
distinguished vice chairman of the full committee, Mrs. 
Blackburn.

    Mr. Pitts. I yield the balance of my time to the 
distinguished vice chairman of the full committee, Mrs. 
Blackburn.
    Mrs. Blackburn. Thank you Mr. Chairman.
    Welcome to the witnesses. We are grateful that you all are 
here.
    In 2002, the Born Alive Infants Protection Act became law. 
It passed the House on a voice vote. It was in response to 
troubling ideas that abortionists and pro-abortion activists 
did not regard infants as legal persons when they were born 
alive during an abortion. The law is explicit in definition 
that every infant who is born alive at any stage of development 
is a person for all Federal law purposes. And yet in 2015 we 
see evidence that some abortion providers feel that they may 
interpret this very clear law to suit their own purposes.
    At the time the Born Alive Infants Protection Act was being 
debated on the floor, Senator Boxer said, and I am quoting, 
``All people deserve protection, from the very tiniest infant 
to the most elderly among us,'' end quote. And I could not 
agree more.
    It is clear more must be done to protect the lives of those 
most vulnerable. It is why I have authorized the Protecting 
Infants Born Alive Act, which strengthens current law by giving 
States the authority to exclude providers from Medicaid when 
they are suspected of violating the law. Furthermore, if 
convicted, these providers will be excluded from all Federal 
programs, including Medicaid, Medicare, and CHIP. It is common 
sense. I look forward to the support of my colleagues.
    And I yield back.
    Mr. Pitts. The Chair thanks the gentlelady.
    I now recognize the ranking member of the subcommittee, Mr. 
Green, for 5 minutes for his opening statement.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman.
    And like our chairman, I apologize to our guests for being 
late, but they don't even let us set the schedule on the House 
floor.
    Unfortunately, instead of using this time to advance 
legislation that improves our healthcare system, we are here in 
response to an aggressive smear campaign against Planned 
Parenthood based on highly edited videos that misrepresent the 
organization's practices. These two bills are transparent 
efforts to give politicians power to block women's access to 
their doctor of choice, jeopardizing the ability of millions of 
low-income Medicaid beneficiaries to see the provider they 
trust for their high-quality health care.
    Federal law has long protected the ability of Medicare 
beneficiaries to receive family planning services. These bills 
fly in the face of a patient's choice and give politicians 
unchecked power to deny women access to the doctor of their 
choosing. If enacted, they would allow for unprecedented level 
of involvement by Government in family planning decisions of 
low-income women. This hearing is part of an ongoing onslaught 
on not just choice, but on access to quality preventative 
healthcare services for millions of American women.
    I am deeply disappointed by the willingness of some of my 
colleagues to shut down the Government in response to 
sensational accusations and no evidence of wrongdoing. Efforts 
to block access to care and defund Planned Parenthood would do 
nothing more than prevent individuals who rely on these 
services from getting the care they need. More than 90 percent 
of what Planned Parenthood does is preventative care, including 
cervical, breast cancer screenings, family planning services, 
mostly for women with few resources and incomes below the 
poverty level.
    We should not continue to play politics with women's 
health. This is real consequences for real people. Using 
women's health as a political football in order to advance an 
extreme agenda is nothing new, but this week's efforts reach a 
new low. We have real challenges that Congress should be 
spending its time addressing, rather than going after, women's 
health.
    [The prepared statement of Mr. Green follows:]

                 Prepared statement of Hon. Gene Green

    Good afternoon.
    Unfortunately, instead of using this time to advance 
legislation that improves our healthcare system, we are here in 
response to the aggressive smear campaign against Planned 
Parenthood based on highly edited videos that misrepresent the 
organization's practices.
    These two bills are transparent efforts to give politicians 
power to block women's access to their doctor of choice, 
jeopardizing the ability of millions of low-income Medicaid 
beneficiaries to see the provider they trust for high-quality 
health care.
    Federal law has long protected the ability of Medicaid 
beneficiaries to receive family planning services.
    These bills fly in the face of patient choice, and give 
politicians unchecked power to deny women access to the doctor 
of their choosing.
    If enacted, they would allow for an unprecedented level of 
involvement by the Government in the family planning decisions 
of low-income women.
    This hearing is part of the ongoing assault on not just 
choice, but on access to quality, preventative healthcare 
services for millions of women.
    I am deeply disappointed by the willingness of some of my 
colleagues to shut down the Government in response to 
sensationalized accusations and no evidence of wrong-doing.
    Efforts to block access to care and defund Planned 
Parenthood will do nothing more than prevent individuals who 
rely on these services from getting the care they need.
    More than 90 percent of what Planned Parenthood does is 
preventive care--including cervical and breast cancer 
screenings, and family planning services-mostly for women with 
few resources and incomes below the poverty line.
    We should not continue to play politics with women's 
health. This has real consequences for real people.
    Using women's health as political football in order to 
advance an extreme agenda is nothing new, but this week's 
efforts are a new low.
    We have real challenges that Congress should be spending 
its time addressing, rather than going after, women's health.

    Mr. Green. With that, Mr. Chairman, I would like to yield 1 
\1/2\ minutes to my colleague and our ranking member of our O&I 
Subcommittee, Congresswoman DeGette.
    Mr. Pitts. Without objection, the gentlelady is recognized.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Thank you, Mr. Green.
    In 2002, I voted for the Born Alive Act because obviously 
it is a crime to kill a baby that has been born. But this bill 
goes far, far beyond that, and this hearing goes far, far 
beyond that. The bills that we are considering today would 
redefine the freedom of choice of providers that is so critical 
to Medicaid's beneficiaries, and it would restrict a 
beneficiary's ability to seek care from a provider who is only 
suspected of having violated the provisions of the bill. This 
violates due process. This violates all of our justice system 
in this country.
    Furthermore, the Democratic staff of the Oversight and 
Investigations Subcommittee did a complete investigation into 
the allegations made in these deeply altered videotapes. The 
conclusion was that this committee has received no evidence to 
substantiate the allegations that Planned Parenthood is engaged 
in the sale of fetal tissue for profit. It goes on to say the 
committee has received no evidence to support the allegations 
that the fetal tissue was procured without consent, that 
Planned Parenthood physicians altered the timing, method, or 
procedure of an abortion solely for the purposes of obtaining 
fetal tissue, and it goes on.
    Mr. Chairman, I would ask unanimous consent to submit that 
report that we did dated September 9, 2015, into the record.
    Mr. Pitts. I would note that the investigation continues, 
but there is no objection. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Thank you very much, and I yield back.
    Mr. Green. Mr. Chairman, I would like to yield the 
remainder of my time to Congresswoman Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    For the past few months, Republicans have insisted on a 
witch hunt based entirely on highly edited, misleading videos, 
videos that were released by a fraudulent organization that is 
now facing legal problems in both State and Federal courts. And 
then, when their own investigation failed to produce a single 
shred of evidence of wrongdoing by Planned Parenthood, 
Republicans doubled down and introduced these incredibly 
harmful bills.
    And don't be fooled by the claim that these bills are about 
protecting infants. It is clear that their true purpose is to 
eliminate Planned Parenthood. And whether or not you agree with 
abortion, it is constitutionally protected and a choice that 
should be only made by women and their doctors, not 
politicians. But because Republicans can't overturn Roe v. 
Wade, they try every other way possible to erode this 
fundamental right. They try to cut off funding to the clinics 
that provide abortions, criminalize doctors that perform 
abortions, restrict access for millions of women every year.
    Let me just end with a comment by a women from Illinois: 
``When I was sexually assaulted, I didn't know who to turn to 
for help. As the trauma I experienced during that event built 
up, I knew I needed to seek help, and I was encouraged to go to 
Planned Parenthood, and for $10 received a full health 
screening and help coping with my trauma.'' That is what 
Planned Parenthood is about.
    I yield back.
    Mr. Pitts. The Chair thanks the gentlelady.
    And just as a courtesy, I might mention we have two Members 
who are not on the Health Subcommittee sitting with us. Mr. 
Westerman, who was interested in attending, is sitting. He will 
not participate. But Ms. DeGette, who is a member of the full 
committee, without objection, will sit and be a part of the 
hearing.
    And at this point the Chair recognizes the chairman of the 
full committee, Mr. Upton, 5 minutes for his questions.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman.
    Every human life deserves a voice, and that is why we are 
here today. This committee has spent the last couple of months 
investigating Planned Parenthood and a series of videos that 
raise important questions about if it or its affiliates are 
violating existing law. That investigation is ongoing, and we 
will continue to use the tools in the toolbox available to get 
to the facts.
    In the meantime, there are steps that we can take today to 
help ensure that the laws, in fact, are being followed. The two 
bills being discussed today take important steps toward 
protecting infant lives and ensuring existing laws are being 
followed. The new vice chair, Marsha Blackburn, and Renee 
Ellmers have both demonstrated their leadership in authoring 
these bills to bolster the Born Alive Infants Protection Act 
and Partial-Birth Abortion Ban Act.
    Today, Medicaid, as we know, pays for about half of the 
births in the U.S. Medicaid is also a significant portion of 
Planned Parenthood's revenue. And while States have some 
ability to enforce existing laws under Medicaid, these bills 
help ensure that States have more of the tools that they need 
to ban someone who is suspected of taking the life of an 
innocent baby from the State's Medicaid program.
    These are commonsense measures to help ensure laws are 
being followed. And if healthcare providers break the law, of 
course they should be banned from Federal health programs. 
Further, if States suspect providers are violating the law, 
they should have the ability to ban that provider from 
Medicaid.
    This hearing, these bills, and our ongoing investigation 
are about ensuring taxpayer dollars support human dignity, 
respect for all life, and adherence to all Federal laws.
    I yield the balance of my time to my colleague from 
Washington State, Cathy McMorris Rodgers.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Every human life deserves a voice. That's why we are here 
today. This committee has spent the past nearly two months 
investigating Planned Parenthood and a series of videos that 
raise important question about if it or its affiliates are 
violating existing law. That investigation is ongoing and we 
will continue to use every tool available to get to the facts.
    In the meantime, there are steps we can take today to help 
ensure that the laws are being followed.
    The two bills being discussed today take important steps 
toward protecting infant lives and ensuring existing laws are 
being followed. Committee Vice Chairman Marsha Blackburn and 
Rep. Renee Ellmers have both demonstrated their leadership in 
authoring these bills to bolster the Born Alive Infants 
Protection Act and Partial-Birth Abortion Ban Act.
    Today, Medicaid pays for about half of the births in the 
United States. Medicaid is also a significant portion of 
Planned Parenthood's revenue. While States have some ability to 
enforce existing law under Medicaid, these bills help ensure 
that States have more of the tools they need to ban someone who 
is suspected of taking the life of an innocent baby from the 
State's Medicaid program.
    These are commonsense measures to help ensure laws are 
being followed. If healthcare providers break the law, of 
course they should be banned from Federal health programs. 
Further, if States suspect providers are violating the law, 
they should have the ability to ban that provider from 
Medicaid.
    This hearing, these bills, and our ongoing investigation 
are about ensuring taxpayer dollars support human dignity, 
respect for all life, and adherence to all Federal laws.

    Mrs. McMorris Rodgers. Thank you, Mr. Chairman.
    I want to thank the committee for their work in advancing 
the cause of life, for Vice Chairman Blackburn's work 
introducing H.R. 3494, the Protecting Infants Born Alive Act, 
and for Congresswoman Ellmer's work on her legislation to 
prevent providers acting in contravention of the partial-birth 
abortion ban from getting tax dollars through Medicaid.
    It has now been 2 months since the first undercover video 
surfaced, and the public concern has not subsided. These videos 
challenge all of us as legislators and as human beings to 
reflect and to work towards better protections for women, 
children, and families.
    Today, the President promised that he would veto a bill 
that says babies that survive an abortion do not deserve life-
saving care. It is unthinkable to me that we live in a country 
where we let living, breathing babies die simply because they 
were born during an abortive procedure. And the President 
doesn't want to just not let this happen, he is actively 
opposing efforts to save babies that were born alive.
    This is a radical, extreme departure from what I know to be 
right. And I am grateful for this committee's work on this 
important issue and for my colleagues' important work here 
today.
    And I would like to yield to the lady from North Carolina, 
Mrs. Ellmers.
    Mrs. Ellmers. Thank you to my colleague from Washington.
    And thank you to the panel for being here today for this 
very important hearing.
    I thank the chairman for holding this important hearing.
    We are here today to talk about protecting the life of the 
unborn and clarifying States' ability in their Medicaid 
programs to work with qualified providers. The legislation I 
have put forward provides States with greater clarity with 
respect to excluding those bad actors that perform partial-
birth abortions.
    Democrats have argued that the bills before us today and 
the bills on the floor would harm women's access to health 
care. This is false. As a nurse, I know these bills would 
protect the unborn, respect taxpayers, and preserve access to 
health care for millions of women.
    If Planned Parenthood funding is put on hold or a State 
takes action against a clinic, women can still access care. 
Federally funded qualified healthcare centers provide 
healthcare services for over 22 million Americans. Planned 
Parenthood only provides services for 2.7 million individuals, 
only a portion of whom are women. And the only services Planned 
Parenthood offers that Federally qualified health centers do 
not is abortion. Yet health centers provide more types of 
important healthcare services than Planned Parenthood does.
    Today and tomorrow we are not decreasing access for women. 
We are talking about legislation to protect the lives of the 
youngest and most vulnerable among us, babies, who have no 
voice to speak in their own defense.
    Thank you, Mr. Chairman, and I yield back the remainder of 
this time.
    Mr. Pitts. The Chair thanks the gentlelady and now 
recognizes the ranking member of the full committee, Mr. 
Pallone, 5 minutes for his statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    It is a real shame that we are here today to continue what 
is nothing more than a Republican assault on women's rights. I 
had hoped that our committee could rise above the fray, that we 
would not use misleading and unsubstantiated videos by 
antichoice extremists to attack Planned Parenthood, an 
organization who is responsible for providing care to millions 
of women across the Nation.
    This concerted effort by Republicans under the guise of 
falsified videos is not about strengthening current law. It is 
about restricting access to women's health care. And if 
Republicans continue down this path, it will lead to a 
Government shutdown.
    Make no mistake, Republican policies under consideration 
here today would roll back the clock on longstanding provider 
choice protections that allow a woman to see a doctor that she 
trusts. Their end goal is to eliminate a woman's constitutional 
right to choose.
    These proposals will have an immediate and chilling effect 
on access to care. They would give States the unprecedented 
ability to unilaterally eliminate providers from State Medicaid 
programs and eliminate providers from all Federal health 
programs wholesale based purely on unsubstantiated allegations, 
and that means suspicion alone.
    With the attempted efforts by States like Indiana and 
Louisiana, this will surely give credence to their actions, and 
this is not the American way. Like abortion, due process is a 
fundamental right.
    I can't stand by and allow this committee and this Congress 
to support a witch hunt against Planned Parenthood, and I will 
not support undue, unconstitutional Government intervention 
into a women's personal decisions with her doctor. Republicans 
must end this extreme agenda to roll back the clock on women's 
rights.
    I have, I think, about 3 minutes left, Mr. Chairman. I 
would like to split that between Representative Matsui and 
Representative Capps. So I will yield first to Representative 
Matsui.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, it's a real shame that we are here today to 
continue what is nothing more than a Republican assault on 
women's rights. I had hoped that our committee could rise above 
the fray. That we would not use misleading and unsubstantiated 
videos by anti-choice extremists to attack Planned Parenthood--
an organization who is responsible for providing care to 
millions of women across the Nation.
    This concerted effort by Republicans, under the guise of 
falsified videos, is not about strengthening current law, it's 
about restricting access to women's health care and if 
Republicans continue down this path, it will lead to a 
Government shutdown.
    Make no mistake, Republican policies under consideration 
here today would roll back the clock on longstanding provider 
choice protections that allow a woman to see the doctor that 
she trusts. Their end goal is to eliminate a women's 
constitutional right to choose.
    These proposals will have an immediate and chilling effect 
on access to care. They would give States the unprecedented 
ability to unilaterally eliminate providers from State Medicaid 
programs and eliminate providers from all Federal health 
programs wholesale--based purely on unsubstantiated 
allegations--that means suspicion alone. With the attempted 
efforts by States like Indiana and Louisiana, this will surely 
give credence to their actions. This is not the American way--
like abortion, due process is a fundamental right.
    I cannot stand by and allow this committee and this 
Congress to support a witch hunt against Planned Parenthood. 
And I will not support undue, unconstitutional, Government 
intervention into a woman's personal decisions with her doctor. 
Republicans must end this extreme agenda to roll back the clock 
on women's rights.
    I yield 1 minute to Rep. Matsui.

    Ms. Matsui. I thank the gentleman for yielding to me.
    The hearing today is looking for ways to deny low-income 
women and families access to health services by excluding 
Planned Parenthood from the Medicaid program. The termination 
of Medicaid funding for Planned Parenthood would create a 
serious deficiency in women's health providers across our 
country.
    Medicaid serves nearly 12 million Californians, and Planned 
Parenthood provides services to nearly 1 million people at 117 
health centers in California alone. Defunding Planned 
Parenthood would leave millions in California and across the 
country without access to essential health services. We should 
not allow politicians to deny a woman access to health care and 
to infringe upon her right to make decisions about her own 
body.
    Even more appalling is the idea of the Government 
infringing upon these rights, specifically for low-income 
women. That is not right. Our colleagues would deny women's 
health and Medicaid services because they don't like Planned 
Parenthood. They are even threatening to shut down the 
Government in order to advance these extreme views.
    I stand in opposition to these bills. I urge my colleagues 
to put aside partisan politics and refocus on efforts to expand 
and improve programs that our constituents rely upon.
    And I yield to Representative Capps.
    Mrs. Capps. Thank you for yielding.
    Mr. Chairman, I must say I am disappointed in this 
committee. I am disappointed that here we have worked so hard 
this year to find common ground and compromise for the American 
people. We are now succumbing to the political theater that has 
taken over the rest of Congress.
    The legislation we are being asked to considered is 
supposedly in response to heavily altered, deceptive videos 
that try to cast a shadow over one of the Nation's most trusted 
women's healthcare providers. But as our colleague on the 
Oversight Committee has testified, that committee has not found 
any evidence of wrongdoing, and without any basis in reality, 
we are still here considering bills in search of a problem.
    In my years as a nurse in the public school system, I 
worked so closely with teen parents whose lives and education 
were disrupted by an unplanned pregnancy. These young mothers 
and students still had such promise, but now they were faced 
with the difficult role of balancing their responsibilities as 
parents and students, often limiting their opportunities.
    We know it doesn't have to be this way. Comprehensive sex 
education and access to a wide range of birth control options, 
this is what Planned Parenthood brings to our communities, and 
they are exactly the types of education and interventions that 
prevent unintended pregnancies and the need for abortion in the 
first place.
    These bills before us would end these important services in 
our communities all for political gain. It is unacceptable. We 
need to stop being distracted and get this committee back to 
work on real issues facing this country.
    I yield back to my colleague from New Jersey.
    Mr. Pallone. I yield back, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman.
    As usual, all the opening statements of the members will be 
put into the record if you submit them in writing.
    And at this point, we will go to our witnesses. Let me 
introduce them in the order that they will present.
    First of all, thank you for coming. We appreciate you 
coming to present testimony today. And on our panel we have 
first Dr. Charmaine Yoest, president of Americans United for 
Life.
    Welcome.
    Then Mr. Casey Mattox, senior counsel for Alliance 
Defending Freedom. And finally Judy Waxman, an attorney.
    So you will be each be given 5 minutes to summarize your 
testimony. Your written testimony will be part of the record. 
But you will be recognized for 5 minutes. And you will have a 
series of lights. The green will stay on for 4 minutes. And 
then, when the red comes on, that is the time for you to 
conclude.
    So at this point the Chair recognizes Dr. Yoest for 5 
minutes for her opening statement.

   STATEMENTS OF CHARMAINE YOEST, PH.D., PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, AMERICANS UNITED FOR LIFE; M. CASEY MATTOX, 
 SENIOR COUNSEL, ALLIANCE DEFENDING FREEDOM; AND JUDY WAXMAN, 
                            ATTORNEY

                  STATEMENT OF CHARMAINE YOEST

    Dr. Yoest. Thank you, Chairman Pitts and members of the 
committee, for inviting me to testify on behalf of Americans 
United for Life, the legal architects of the pro-life movement.
    The videos released by the Center for Medical Progress, 
which document senior-level Planned Parenthood staff callously 
discussing its practice of harvesting the organs of aborted 
babies in exchange for money, are deeply troubling. We have 
previously submitted a legal analysis of the videos to the 
Energy and Commerce Committee detailing six potential felonies 
shown on the videos.
    Today, I will focus on three issues that have received less 
attention to date, specifically Planned Parenthood's 
involvement in killing infants born alive after an abortion, 
performing illegal partial-birth abortions, and coordinating 
potentially unethical and illegal organ and body part 
harvesting at the corporate level.
    The flagrant disregard for both life and law at Planned 
Parenthood that the videos depict is, unfortunately, not 
surprising. One of AUL's primary functions is promoting 
meaningful legislative protections for all human life, 
including laws to protect infants born alive after an abortion 
and health and safety standards. Yet Planned Parenthood 
regularly and publicly fights against these commonsense laws.
    The videos provide insight into why Planned Parenthood 
desperately fights against lawful standards, even protections 
for babies born alive, like it recently did in Colorado. In one 
Colorado video, Dr. Savita Ginde, who is the vice president and 
medical director of Planned Parenthood of the Rocky Mountains, 
remarked, quote, ``If someone delivers before we get to see 
them for a procedure, then they are intact. But that is not 
what we go for.''
    The videos raise credible concern that babies are regularly 
surviving an abortion, providing probable cause for 
investigating possible violations of the Federal Born Alive 
Infant Protections Act. Multiple people throughout the videos 
refer to the delivery of an intact specimen. For most of us, 
that is a baby, begging the question, Was that child born 
alive?
    In multiple instances throughout the videos, that appears 
to be true. For example, Dr. Ben Van Handel, executive director 
of Novogenix Laboratories, notes: ``There are times when after 
the [abortion] Procedure is done that the heart is actually 
still beating.'' Cate Dyer, CEO of StemExpress, says intact 
babies are common. Quote: ``If you had intact cases, which we 
have done a lot, we sometimes ship those back to our lab in its 
entirety.''
    The videos also provide probable cause to investigate 
whether Planned Parenthood violates the Federal prohibition of 
partial-birth abortion in order to harvest more usable baby 
organs. It is important to note that Planned Parenthood 
actively opposed the Federal ban on partial-birth abortion and 
unsuccessfully tried to have it struck down in the courts.
    Even so, Dr. Deborah Nucatola, who is the senior medical 
director of corporate Planned Parenthood, defiantly dismisses 
the Federal law, describing it as, quote, ``up to 
interpretation,'' end quote, for abortionists like herself. 
Consider her description about, quote, ``steps that can be 
taken to try to ensure,'' end quote, procurement of brain 
tissue. The abortion process she describes, deliberately 
changing the baby to breach presentation, has a very troubling 
similarity to the description of the illegal partial-birth 
abortion procedure.
    And finally, the videos document a nationwide network of 
affiliates in close communication with and endorsement from the 
corporate headquarters of Planned Parenthood. As an 
organization, Planned Parenthood's enterprise liability is 
illustrated by the knowledge and complicity of its senior-level 
staff who set and direct policy. Dr. Nucatola stated multiple 
times that the legal department at Planned Parenthood was well 
aware of the harvesting and selling of infant body parts by 
affiliates but advised against issuing written national 
guidelines regarding the practice. Dr. Ginde made similar 
statements.
    In fact, as this chart demonstrates, the undercover videos 
show that the scandal is extensive and reaches the highest 
levels of Planned Parenthood.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
    Dr. Yoest. For example, the videos include discussions with 
corporate Planned Parenthood's senior medical director, the 
president of Planned Parenthood's Medical Directors' Council, 
the vice president and medical director of Planned Parenthood 
Rocky Mountain, which is one of their largest affiliates, and 
the national director for Planned Parenthood's Consortium of 
Abortion Providers.
    In conclusion, on behalf of Americans United for Life, I 
encourage you to take two legislative responses as a beginning. 
First, redirect the tax dollars that presently support Planned 
Parenthood to true healthcare providers not plagued by scandal. 
This abortion giant receives over $1.25 million per day--per 
day--in Government funding. We support the proposals to address 
Medicaid funding that is subsidizing Planned Parenthood because 
Americans should not be forced to fund the Nation's number one 
abortion provider.
    And second, strengthen the Federal Born Alive Infant 
Protection Act with criminal penalties to ensure meaningful 
enforcement of the most basic human right to life for these 
infants who survive attempted abortions.
    Additionally, hold abortion workers to their legal duty to 
report crimes to law enforcement. Planned Parenthood cannot be 
permitted to operate while violating laws that protect human 
rights. Having shown and demonstrated that it cannot resist the 
financial incentive for delivering intact babies to harvest 
their organs, Planned Parenthood cannot be allowed to continue 
their inhumane practices unchecked.
    And let me conclude by saying thank you for addressing this 
very important issue and holding this hearing.
    [The prepared statement of Dr. Yoest follows:]\1\
---------------------------------------------------------------------------
    \1\ Additional information submitted by Dr. Yoest has been retained 
in committee files and also is available at  http://docs.house.gov/
meetings/IF/IF14/20150917/103957/HHRG-114-IF14-Wstate-YoestC-20150917-
SD002.pdf.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Pitts. The Chair thanks the gentlelady and now 
recognizes Mr. Casey Mattox, 5 minutes for your opening 
statement.

                  STATEMENT OF M. CASEY MATTOX

    Mr. Mattox. Mr. Chairman and members of the committee, 
thank you for the opportunity to speak to you today.
    Planned Parenthood benefits substantially from Medicaid. 
Despite providing only a limited selection of medical services, 
it annually receives over a half-billion taxpayer dollars. Over 
the last decade, Planned Parenthood's own annual reports 
indicate it has almost doubled its tax revenues, and it has 
reported $765 million in what it calls excess revenue, $127 
million of that last year alone.
    During the same time period, Planned Parenthood has reduced 
its cancer screenings by half and increased the number of 
abortions it performs even as the national abortion rate has 
declined, giving it a 40 percent market share, as Planned 
Parenthood's senior medical director, Deborah Nucatola, bragged 
in the first CMP video.
    Planned Parenthood receives taxpayer dollars in many ways, 
but principally from Medicaid. Yet Planned Parenthood is unlike 
many other providers, not only because of its profits, but also 
because it has also been able to resist much of the corrective 
action that other Medicaid providers with its track record 
would expect. And unlike other Medicaid providers, Planned 
Parenthood has spent millions of dollars in recent elections 
supporting its preferred candidates. Planned Parenthood has a 
long history of actions that would have jeopardized its State 
Medicaid contracts were it any other provider.
    The States regulate medicine, and the States supply their 
own tax dollars to Medicaid. Thus Congress did not create one 
Medicaid program. It created 50. States are free to craft their 
own programs to best serve their own citizens' needs, choosing 
which providers they will entrust with taxpayer dollars. The 
Medicaid Act itself and its legislative history affirm that 
States have broader authority than even the Federal Government 
to exclude providers from their Medicaid programs, and the 
courts have agreed.
    Thus, over the last two decades, over 9,000 of the now 
554,000 Medicaid providers in this country have been 
disqualified from State Medicaid programs. Those decisions are 
usually uncontroversial, but recent actions by the Federal 
Government to protect Planned Parenthood have undermined that 
Federal-State balance. When States choose not to contract with 
abortionists and their Medicaid programs, reasonably concerned 
that taxpayer dollars would subsidize those abortions, the 
administration issued a new interpretation of the Medicaid 
statute that purports to deny them the right to administer 
their State Medicaid program.
    Recently, after several States terminated contracts with 
Planned Parenthood specifically, the administration expanded 
that interpretation, claiming that those States lacked the 
right to exclude individual providers suspected of violating 
the law, at least where Planned Parenthood is concerned. This 
despite the fact that each State has hundreds of other low-cost 
healthcare options for the few Planned Parenthood clinics' 
limited service.
    The administration's actions are robbing the States of 
control over their own State Medicaid programs to protect a 
politically powerful but ethically and legally challenged 
organization. Congress can restore the proper balance, allowing 
States to determine which providers they trust with taxpayer 
dollars.
    Any other Medicaid provider subject to multiple 
whistleblower lawsuits by former employees alleging tens of 
millions of dollars in waste, abuse, and potential fraud, which 
paid $4.3 million after being accused of submitting false 
claims by the Obama administration Department of Justice, which 
has been specifically identified as the source of over $8 
million in Medicaid overpayments by Government audits, 
including submitting claims for abortion-related services, any 
other provider like that would not be surprised to have its 
Medicaid billing privileges suspended or even terminated.
    Any other Medicaid provider caught having failed to report 
sexual abuse of minors at least a dozen times, including most 
recently a 14-year-old girl in Mobile, Alabama, who was 
returned twice, after two abortions in Mobile, returned twice 
to her abuser without reporting that information to 
authorities, any other Medicaid provider in that position would 
be surprised to only have their Medicaid privileges terminated.
    Any other Medicaid provider that was paid by a for-profit 
company, StemExpress, for baby body parts where that company 
has claimed in writing to provide ``financial profits,'' quote, 
and ``fiscal rewards'' to abortion clinics in marketing 
materials bearing the endorsement of that Medicaid provider 
whose CEO acknowledged to Congress--we are not talking about 
the videos--acknowledged to Congress that it had received $60 
per baby body part and could provide no evidence that actually 
connected those payments with any actual expenses that Planned 
Parenthood experienced, whose top-level management has been 
captured on hours of videos negotiating prices for those organs 
and the alteration of abortion methods against the mother's 
knowledge to obtain those organs for sale would rightfully 
expect that its Medicaid contract would be in jeopardy.
    But Planned Parenthood is not any other Medicaid provider. 
It is a politically powerful organization that spends 
substantial sums from its sizeable excess revenues to maintain 
its funding and its political power, and Planned Parenthood is 
being protected by this administration.
    Congress can reaffirm that the States have the authority to 
govern their own State Medicaid programs and make decisions 
that are in the interest of their citizens, even where Planned 
Parenthood is concerned.
    [The prepared statement of Mr. Mattox follows:]\1\
---------------------------------------------------------------------------
    \1\ Additional information submitted by Mr. Mattox has been 
retained in committee files and also is available at  http://
docs.house.gov/meetings/IF/IF14/20150917/103957/HHRG-114-IF14-Wstate-
MattoxC-20150917-SD001.pdf.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Pitts. The Chair thanks the gentleman and now 
recognizes Ms. Waxman, 5 minutes for your opening statement.

                    STATEMENT OF JUDY WAXMAN

    Ms. Waxman. Thank you for the opportunity to testify here 
today.
    I have two points to make today. One, the two bills at 
issue here today clearly, as you heard already, have a single 
purpose, and that is to make it easier for State officials to 
target Planned Parenthood and other women's health providers.
    The Medicaid program is rooted in due process protections 
for both patients and for providers. These bills are not. The 
two bills would amend Medicaid to allow State officials to 
exclude a provider from the program if they or one of their 
employees is simply suspected of violating either of the laws 
we are discussing today. The standard is unduly vague, and as 
Congressman Pallone said, it is not the American way.
    Two, Planned Parenthood is, in fact, a respected, high-
quality provider that provides essential healthcare services 
for millions of women nationwide. The Medicaid funds that they 
receive are reimbursement, and I will say even low 
reimbursement, directly for the services that they are 
providing these women--family planning services, breast 
screening, STD screening, et cetera. And by giving States carte 
blanche to exclude these providers from Medicaid based on a 
politician's suspicion only, these bills will definitely put 
the health of millions of women at risk.
    The bills before the committee today go dangerously beyond 
what the law currently provides. Based on a hunch or a rumor, 
all services the provider offers to Medicaid patients could 
totally evaporate. There would be no due process or any process 
at all for determining whether an accusation is true. The bills 
give unlimited power to exclude a provider without so much as 
an investigation, evidence to support the accusation, a 
hearing, court proceedings, an opportunity for the entity to 
defend itself, or appeal.
    The result of giving the States this unlimited power would 
be that they would be free to wreak havoc on programs that 
advance women's health, and healthcare services for millions of 
women, particularly low-income women, around the country would 
be at risk.
    Yesterday's Census Bureau report found that in 2014, fully 
20 percent of all women and girls in this country received 
Medicaid to cover their healthcare services, which explains why 
Medicaid is so important to women throughout their lives. And 
because reimbursement rates for Medicaid is generally lower 
than other payers, there are just not always that many Medicaid 
providers available.
    The role that Planned Parenthood plays is to provide 
critical, essential care, and that role cannot be overstated. 
If Planned Parenthood were not available to Medicaid patients, 
unfortunately, unintended pregnancies and the number of 
abortions would increase dramatically. As the Guttmacher 
Institute found, in two-thirds of the almost 500 counties in 
which Planned Parenthoods are located, they serve at least half 
of all the women obtaining contraceptive care from safety net 
health providers. And in many communities, Planned Parenthood 
is, in fact, the sole safety net provider.
    So what would happen if Planned Parenthood was defunded. 
Well, let's take Texas for example. In recent years, Texas 
decided to get out of the Medicaid program for family planning 
services so they could cut Planned Parenthood out of their 
networks, and as a result other clinics could not handle the 
deluge of new patients. In Hidalgo County alone, community 
health centers said they would require a 500 percent increase 
in capacity for women's health, something they simply could not 
do. Medicaid claims dropped 26 percent and contraceptive claims 
dropped 54 percent. That tells me women were not getting care.
    Two other programs are cited as having the ability to fill 
the gap, Title X and community health centers. And while Title 
X offers critical services to women who need family planning 
services, it is already woefully underfunded and under severe 
attack. In fact, the House Appropriations Committee voted just 
this summer to totally defund this program.
    As for community health centers, let's be realistic. CHCs 
have grown nationwide since the passage of the Affordable Care 
Act, but they can't handle the patients they have now already, 
which, in fact, is a good thing. Many more people have 
insurance. But according to their own accounts, for every 
patient served at a CHC, nearly three go without access to 
primary healthcare services. And while some private doctors of 
course do see Medicaid patients, there will be enough of them, 
unfortunately, to fill the gap.
    These bills give States an unprecedented ability to deny 
Medicaid enrollees from getting the healthcare services they 
need from their trusted healthcare provider. It is the women, 
and particularly the low-income women, that will be the losers 
if these bills are enacted. Thank you.
    [The prepared statement of Ms. Waxman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Pitts. The Chair thanks the lady.
    That concludes the opening statements of the witnesses. We 
will now begin questioning. I will recognize myself for 5 
minutes for that purpose.
    Before we begin, let me just warn the audience that the 
pictures that you are about to see are quite graphic. It is 
important to show exactly what we are talking about here.
    So the first clip, please.
    [Video shown.]
    Mr. Pitts. Let me read those words in case you couldn't 
hear them: ``It had a face. It wasn't completely torn up. Its 
nose was very pronounced. It had eyelids. Since the fetus was 
so intact, she said, `OK, well, this is a really good fetus, 
and it looks like we can procure a lot from it. We are going to 
procure a brain.' That means we are going to have to cut the 
head open.
    ``She takes the scissors. She makes a small incision right 
here and goes, `I would say, maybe a little bit through the 
mouth.' And she is like, `OK, can you go the rest of the way?' 
And so she gave me the scissors and told me that I had to cut 
down the middle of the face, and I can't even describe what 
that feels like,'' end quote.
    That is the whistleblower.
    Next clip.
    [Video shown.]
    Ms. Castor. Mr. Chairman, I have to object to this. You 
don't have any context for this. What we understand from all of 
the investigations is that these are manufactured videos, 
highly edited, selective. And I would object and say you need 
to run these by the minority so that we can provide some 
context.
    Mr. Pitts. All right. Now that is the second video, and Dr. 
Nucatola, the senior director of the Planned Parenthood Medical 
Services, says, ``We have been very good at getting heart, 
lung, liver, because we know that. I am not going to crush that 
part. I am going to basically crush below----''
    Mr. Butterfield. Mr. Chairman, point of order.
    Mr. Pitts. ``I am going to crush''--let me finish, I am on 
my time, please.
    Mr. Butterfield. I am raising a point of order, Mr. 
Chairman, to prevent you from going further. Did you rule on 
the gentlelady from Florida's objection just a moment ago?
    Mr. Pitts. Would you please state your point of order?
    Mr. Butterfield. Did you rule on the gentlelady from 
Florida's objection a moment ago?
    Mr. Pitts. I did not.
    Mr. Butterfield. Would you please make a ruling for the 
record?
    Mr. Pitts. She did not state her point of order. Reclaiming 
my time.
    And so it says, ``I am going to crush above. I am going to 
see if I can get it all intact. I would say a lot of people 
want liver, and for that reason most providers will do this 
case under ultrasound guidance so that they will know where 
they are putting their forceps,'' end quote.
    All right. The final clip.
    [Video shown.]
    Mr. Pitts. All right. This is the clip of the unedited 
conversation which Dr. Nucatola explains how she plans her day, 
procedures around the baby's organs she would like to maintain 
intact. As she plans her day, these babies are not different 
than anyone else of us, and yet it, frankly, gives me chills to 
think about how someone could even think about removing their 
organs.
    And so these clips have shown the gruesome reality we are 
talking about. They are available in the public domain. None of 
us can forget the images and words that we see when we look at 
these and the blatant disregard for human life. And no 
organization, especially one that receives millions of dollars 
from the Federal Government, should be able to participate in 
such horrific actions. That is why we are here today, and that 
is why we are going to act.
    The Chair now recognizes the ranking member, Mr. Green, 5 
minutes for his questions.
    Mr. Green. Thank you, Mr. Chairman.
    Frankly, this is unprecedented, what you have done, because 
this is a group, the shadow org called Center for Medical 
Progress. And let me--what is already in the record, the staff 
and the memorandum has found, to date the committee has 
received no evidence to substantiate the allegations that 
Planned Parenthood has engaged in the sale of fetal tissue for 
profit.
    Furthermore, the committee has received no evidence to 
support the allegations that fetal tissue was procured without 
consent, that Planned Parenthood physicians altered the timing, 
method, or procedure of the abortions solely for the purposes 
of obtaining fetal tissue, or that Planned Parenthood 
physicians performed--violated the Partial-Birth Abortion Act 
in order to preserve fetal tissue for research.
    I think this is a new low for our committee. We can't 
question this video, but I know the group that presented it. 
And for the last 10 years, this is the 10th attack in 15 years 
that abortion opponents have used the doctored evidence, and 
now it has been presented by our chair to a committee.
    Now, I want to proceed to my questions.
    Professor Waxman, I would like to ask you about the impact 
defunding Planned Parenthood would have on women's access to 
life-saving reproductive and primary care services. 
Unfortunately, this is not hypothetical in Texas. A few years 
ago, former Governor Perry decided to refuse Federal Medicaid 
funds for our State planning program in order to exclude 
Planned Parenthood from its network, which is what the bill 
talks about.
    Mr. Chairman, I would like to ask unanimous consent to 
enter a House Affairs post entitled ``How Texas Lawmakers 
Continue to Undermine Women's Health,'' and it is a report by 
the Texas Health and Human Services Commission on Texas Women's 
Health Program, which found a 54 percent decrease in 
contraception claims as a result of the exclusion of Planned 
Parenthood from its women's health.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Green. Thank you, Mr. Chairman.
    Professor Waxman, what was the reason for this exclusion? 
Do you acknowledge that there is anything wrong with the 
services Planned Parenthood was providing?
    Ms. Waxman. It is my understanding that it was simply the 
administration in Texas that did not want to allow Planned 
Parenthood to operate anymore and to be able to provide 
services for women with Medicaid dollars.
    Because there was really not a legal way for that to be 
accomplished, what the Governor did was just simply end the 
program through which Texas was getting family planning 
services.
    Mr. Green. What happened in Texas as a result of the 
exclusion of Planned Parenthood?
    Ms. Waxman. What happened was what we have already seen, 
and you said 54 percent decrease in services, in contraception 
services----
    Mr. Green. And that is just not restating it, that is a 
State agency that did a study on Texas?
    Ms. Waxman. Yes. And clearly women are not getting the care 
that they need, and this is a travesty that obviously some want 
to have happen all over the country.
    Mr. Green. Do you think the impact of these cuts 
disproportionately fell upon low-income women?
    Ms. Waxman. Absolutely. By definition, women who are on 
Medicaid are low-income, and those are the ones that are 
bearing the burden.
    Mr. Green. What do you think about the impact on patients' 
continuity of care, which again Planned Parenthood provides? As 
I said before, 90 percent of what they do, at least, is women's 
health.
    Ms. Waxman. Absolutely. Planned Parenthood is a trusted 
provider. About 1 in 5 American women have gone to see a 
Planned Parenthood. So if you see Planned Parenthood being 
wiped off the face of the country, one thing that will happen 
for sure is millions more unintended pregnancies and possibly 
close to a million more abortions because services will just 
not be available.
    Mr. Green. Well, I am from Texas, a native Houstonian, and 
I am proud of being there. But I really don't want the Nation 
to do what Texas tried to do.
    Mr. Chairman, I would like to yield to my colleague, 
Congresswoman Schakowsky, for a parliamentary question with the 
remainder of my time.
    Mr. Pitts. The Chair recognizes Ms. Schakowsky for the 
question.
    Ms. Schakowsky. The questions I would like to ask, Mr. 
Chairman, whether the committee majority is in possession of 
the unedited--you claim these are unedited, although the music 
behind the person I am sure wasn't a part of the scene--from 
the Center for Medical Progress. A number of our committee 
members have been quoted in the press as having seen the videos 
before they were released to the public, and others have 
referred to the existence of thousands of hours of additional 
tapes. Is any member of the committee, Mr. Chairman, in 
possession of any of the unedited videos from the Center for 
Medical Progress?
    Mr. Pitts. The committee is not. They are publicly 
available. Anyone can access them.
    Ms. Schakowsky. Has any member of the committee majority 
received any documents from the Center for Medical Progress?
    Mr. Pitts. What is the parliamentary inquiry?
    Ms. Schakowsky. The question I was asking, has any member 
of the committee majority received any documents from the 
Center for Medical Progress?
    Mr. Pitts. All right. The gentlelady's question relates to 
the investigation taking place in the Oversight Subcommittee. 
It is my understanding that the minority has received its own 
copy set of all the documents produced to the committee in 
response to committee requests, and minority staff has also 
been present at the briefings and interviews conducted in this 
investigation. So there is no basis to raise the rule.
    And I will at this point recognize Chairman Upton.
    Mr. Upton. Thank you, Mr. Chairman.
    I know a number of members have indicated, they have said 
during the hearing that there is no evidence of wrongdoing. I 
would just like to make a point that the investigation itself 
is far from complete. We have asked a number of questions we 
don't have the answers to yet. We have asked to speak to a 
number of witnesses, even a good number of weeks ago, and we 
have not yet had access to those particular individuals. Many 
are asking for legal counsel.
    And to talk a little bit further about that in terms of the 
record not being complete, which is the reason why we have 
asked the Oversight and Investigations Subcommittee to pursue 
this, I would yield to the chairman of that subcommittee, Dr. 
Murphy.
    Mr. Murphy. I thank the chairman for yielding so I can 
offer some clarification here, because I feel obligated to take 
this time, speaking as chairman of the committee's Oversight 
and Investigations Subcommittee, to address the remarks made by 
my colleague, the gentlelady from Colorado, regarding the 
status of the subcommittee's investigation.
    Statements have been made to indicate the investigation is 
complete. It is not. The investigation we are conducting with 
invitations extended to our Democrat colleagues for every 
meeting is far from complete. In fact, the Oversight and 
Investigations Subcommittee is in the preliminary stages--
preliminary stages--of its investigation into the practice of 
procuring and selling the tissue and parts from babies who have 
been aborted. A few witnesses have been interviewed, and many 
have not. Some documents have been obtained. Others will be 
sought and reviewed, and these will be shared.
    The videotapes of these practices put very important issues 
into the public domain. It is our shared responsibility to 
collect the facts and present sound information to the American 
people. It is premature to draw any conclusions to this ongoing 
investigation. It is going to take a thorough investigation to 
get to the bottom of this practice, and at this point we simply 
cannot conclude that there has been no wrongdoing.
    I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the chairman of the full committee, Mr. 
Upton, 5 minutes for his questions.
    Mr. Upton. I yield back.
    Mr. Pitts. The Chair yields back.
    Now we recognize the ranking member of the full committee, 
Mr. Pallone, for his questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask these questions of Ms. Waxman. We are 
having this hearing today because of a series of videos that 
purport to show illegal and unethical activity on the part of 
Planned Parenthood, but what they actually show is something 
very different.
    Professor Waxman, did you know that the first four short 
videos released by Mr. Daleiden have over 40 separate splices 
and edits that remove crucial context?
    Ms. Waxman. I did not know that. I knew they were doctored, 
but that is an interesting detail.
    Mr. Pallone. Did you know that the edits removed key 
exculpatory statements, such as, and I quote: ``Nobody should 
be selling tissue. That is just not the goal here.'' Or second, 
quote: ``This is not a service they should be making money 
from. It is something they should be able to offer to their 
patients in a way that doesn't impact them,'' unquote. Or, 
quote, thirdly: ``We are not looking to make money from this. 
Our goal is to keep access available.''
    Ms. Waxman. So in other words, the pieces we see are taken 
totally out of context?
    Mr. Pallone. Right. And the statements where the Planned 
Parenthood individuals are saying that, you know, that they 
would not do any of these things have been taken out.
    Let me ask you this: Do these seem like relevant statements 
to include in the videos?
    Ms. Waxman. I think that given that these videos are 
clearly doctored and that they are taken out of context, they 
don't seem really appropriate to be seen here today, to me.
    What I do know is that Planned Parenthood has said that 
only about 1 percent of the activities they are engaged in have 
anything to do with fetal tissue. And I know fetal tissue 
research is, obviously, a controversial issue. I think if that 
is what the concern is, that seems to be another day for 
another hearing on that.
    But in terms of what these videos show, I think without the 
whole context and without the splicing, I would say I am not 
sure it shows anything much.
    Mr. Pallone. Did you know that in one of the videos, there 
are at least 16 substantial unexplained edits, including the 
removal of nine instances where the Planned Parenthood staff 
said there is no profit related to tissue donation?
    Ms. Waxman. Very interesting.
    Mr. Pallone. Does that seem like relevant material to 
include in the video?
    Ms. Waxman. I would think not.
    Mr. Pallone. And does it seem misleading and fundamentally 
dishonest to remove statements like that?
    Ms. Waxman. I would say it is fundamentally dishonest.
    Mr. Pallone. Now, see, that is why the videos have been 
denounced as a total crock, distorted, unfair, dishonest, 
grossly misleading, and politically irresponsible, and 
swiftboating in editorials across the country. And it is also 
why a forensic analysis by expert investigators concluded that 
the videos have no evidentiary value and cannot be relied upon.
    Yet our committee Republicans launched an investigation 
based on these discredited videos, and now they are using these 
videos as a pretext for shutting down the Government--and, of 
course, as part of the hearing today--to say that States cannot 
allow Planned Parenthood to receive any Medicaid funding.
    I just think it is so irresponsible, you know, to use this 
type of material, false, false material, false videos, 
inaccurate videos, misleading videos, to make any case at what 
is supposed to be a legislative hearing.
    And, you know, this is what is so upsetting to us on the 
Democratic side, is that these are presented as if, you know, 
they have some evidentiary value to make a decision about the 
legislation that is before the committee, and the fact is that 
they have no evidentiary value.
    And that is why we issued a report a few days ago, I think 
Ms. Schakowsky mentioned it, saying basically that while it may 
be true that the committee continues to conduct investigation--
at least, you know, the Republicans want to continue the 
investigation--nothing that has come before this committee 
gives us any indication that Planned Parenthood has done 
anything illegal, anything improper. And if they want to use 
these videos to make that case, then I think the Republicans 
have to show the unedited version, and that is not what we are 
getting. And the chairman even said the committee doesn't have 
the unedited version.
    So, you know, this is really a charade. As some of my 
colleagues on the Democratic side said, it is a new low for a 
committee that usually operates not only on a bipartisan basis, 
but also based on the facts and the evidence, and we are not 
getting the facts and the evidence here today, Mr. Chairman. We 
are simply not. Thank you.
    Ms. DeGette. Would the gentleman yield?
    Mr. Pallone. Yes, sure.
    Ms. DeGette. Furthermore, what I don't understand, if, as 
my friend Mr. Upton, the chairman, says, the investigation in 
Oversight and Investigations is far from complete, why now 
today in the Health Committee's hearing the majority is showing 
these videotapes that are under the investigation, which the 
majority now claims is incomplete in the other subcommittee? It 
is obvious it is just a pretext for trying to move this 
legislation along, and that is far beneath the standards of 
this august committee.
    I yield back.
    Mr. Pitts. The gentleman's time has expired.
    We are voting on the floor. We still have 13 minutes, so we 
will continue. And the Chair recognizes the vice chairman of 
the full committee, Mrs. Blackburn, 5 minutes of questions.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And I will remind my colleagues, we are not having a 
hearing today on the tapes. What we are having a hearing on is 
legislation that will strengthen the ability to keep these 
children alive. And it is important that we refocus that and 
return to this.
    Yes, these videos are in the public domain now. And we are 
talking about babies. We are talking about human life. And we 
are talking about life rights. And it is important for us to 
return to that focus.
    Dr. Yoest, I would like to come to you, if I may, please. 
You noted that the Born-Alive Infants Protection Act needed to 
be strengthened and that there needed to be some criminal 
penalties put in place that would ensure enforcement. And I 
would like for you to describe what you see as the weaknesses. 
I would like to hear from you about what you think we need to 
do. And then, of course, the legislation that I have brought 
forward that would address some of those flexibilities for the 
States.
    So if you will take a couple of moments and do that, I 
would appreciate it.
    Dr. Yoest. Thank you, Congressman Blackburn, I appreciate 
the opportunity to address many of the issues that have been 
raised. And particularly thank you for your legislation, which 
I believe is a tremendous first step in the direction of 
addressing some of these really troubling issues that we are 
discussing today.
    I think one of the things that has been most surprising for 
many of us in getting into this time period where we have been 
looking at these questions is many people aren't even aware 
that the Born-Alive Infants Protection Act, as it was passed 
years ago, was simply a descriptive bill.
    Mrs. Blackburn. If I may add there. It passed in 2002 on a 
voice vote in the House. Go ahead.
    Dr. Yoest. It passed in a voice vote here, and in the 
Senate it was unanimous. And every Senator was present, 
including Senator Hillary Clinton and many other very prominent 
abortion right supporters.
    So what I think is important to note is that this is an 
issue that is really common sense for everyone.
    Most people aren't aware that there is no penalty attached 
to not providing humane care for a baby who is born alive after 
an abortion. And what we see in our work as Americans United 
for Life is just earlier this year I was invited to testify in 
front of the Colorado State Legislature, who was looking at a 
State-based protection for babies born alive. And the Colorado 
Planned Parenthood came and testified that babies are never 
born alive after an abortion.
    And what particularly, I think, should be a concern to all 
of us from a human rights perspective is that when a baby is 
born alive after an abortion, they are at the mercy of someone 
who has been hired to ensure that their life is not continued.
    Mrs. Blackburn. Let me interject right there and stop you 
and ask again, are you aware of cases that have demonstrated 
that abortion survivors, infants born alive from a botched 
abortion, that they are killed or denied treatment after birth? 
Do you know of any cases?
    Dr. Yoest. Yes, ma'am. There was a very prominent incident 
with a pro-life nurse, Jill Stanek, who became pro-life after 
witnessing a baby that was discarded and set aside and left to 
perish after being born alive.
    And going to the point about the veracity of the videos, I 
would just argue that what we are looking at is a question of 
probable cause for investigation. If we have a situation where 
a whistleblower has had the courage to come forward and state 
for the record that she observed a beating heart of a baby 
after an abortion, I think the burden of proof is then on 
Planned Parenthood to prove that this is not happening.
    Mrs. Blackburn. Thank you. I appreciate that.
    I have just a couple of seconds left, and I would like for 
you to weigh in on this. There was a memo circulated to members 
yesterday, it was a Planned Parenthood memo that warned the 
Born-Alive Abortion Survivors Protection Act that the House is 
going to vote on tomorrow, and I am quoting, ``rolls back a 
carefully crafted bipartisan agreement reached in 2002 and 
would leave''--and I am quoting again-- ``significant 
uncertainty about what the bill actually does,'' end quote.
    Would you talk about that just a moment, please, what the 
bill does?
    Dr. Yoest. Well, I think the advantage of having this 
legislation right now is that it actually clarifies what the 
situation is. Because to have something as serious as a 
situation where a person is born alive and it is unclear as to 
what the approach is to that person's life--for example, 
Planned Parenthood a couple of years ago testified in Florida 
when another State-based born-alive bill was being considered, 
the Planned Parenthood representative was asked what their 
policy is when a baby is born alive, and she said: Well, that 
is left up to the doctor.
    So this legislation would clarify that if a baby is born 
alive it is a person and that not providing the humane standard 
of care that is available to a baby that is born in the same 
circumstances of timing under any other circumstances, that it 
is a question of fairness.
    Mrs. Blackburn. Thank you.
    I yield back, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentlelady and now 
recognizes the gentlelady from California, Mrs. Capps, 5 
minutes for questions.
    Mrs. Capps. Thank you, Mr. Chairman.
    In theory, we are here to address two bills, but we have 
yet to see any reliable evidence to show that these bills are 
anything more than a quote/unquote ``solution in search of a 
problem.''
    In reality, though, the problems they would create for 
women and families across this country are very real. Any sort 
of chilling effect on women's health providers or barring of 
Federal grants and reimbursements for preventive healthcare 
services at Planned Parenthood would affect millions of 
Americans. And contrary to what some might claim, defunding 
Planned Parenthood would have a significant impact on the 
healthcare safety net in our communities.
    Professor Waxman, I want to ask you a few questions about 
how defunding Planned Parenthood would jeopardize women's 
access to critical health services. Last week in the journal 
Health Affairs, Professor Sara Rosenbaum wrote a piece 
describing the potential impact of defunding Planned 
Parenthood. She wrote, and I quote: ``A claim that community 
health centers readily can absorb the loss of Planned 
Parenthood clinics amounts to a gross misrepresentation of what 
even the best community health centers in this country would be 
able to do. For the millions of poor women who depend on 
Planned Parenthood clinics, this scenario would mean the loss 
of affordable and accessible contraceptive services and 
counseling, as well as breast and cervical cancer screenings 
and testing and treatment for sexually transmitted infections. 
The assertion that community health centers could step into 
this breach of this magnitude is simply wrong and displays a 
fundamental misunderstanding of how the healthcare system 
works.''
    Similarly, last month, the California Primary Care 
Association wrote a letter to Senator Boxer about the impact of 
defunding Planned Parenthood on the Community Health Center 
Network. In it they say, and I quote: ``Eliminating Planned 
Parenthood from our State's comprehensive network of care would 
provide untenable stress on the remaining providers. We do not 
have the capacity for such an increase in care.''
    This is direct from the providers, who some claim could 
easily pick up the slack if Planned Parenthood is defunded.
    Now three quick questions for you.
    Professor Waxman, do you think removing funding for the 
largest provider of contraception would increase or decrease 
the number of unintended pregnancies?
    Ms. Waxman. According to the Guttmacher Institute, it would 
increase unintended pregnancies by about 2 million.
    Mrs. Capps. Do you think it would improve or weaken women's 
access to essential life-saving healthcare services?
    Ms. Waxman. Clearly, it would be a serious blow to women 
who need these services through Medicaid.
    Mrs. Capps. And would this loss of services primarily 
affect wealthy women or would it disproportionately affect poor 
and minority women?
    Ms. Waxman. Disproportionately poor and minority women.
    Mrs. Capps. Thank you.
    Republicans are willfully putting their heads in the sand. 
They think it is no big deal to shut down hundreds of clinics 
offering essential services that are not available anywhere 
else. They may think it is worth shutting down the Government 
to achieve this goal.
    Moreover, I would just like to emphasize, these women have 
chosen to go to Planned Parenthood for their care. Suggesting 
they can just get their care from other providers is both 
callous and condescending. With all due respect to my 
colleagues on the other side of the aisle, which provider a 
woman chooses to go to for her reproductive health care is not 
your decision to make, or at least it should not be.
    I yield back.
    I am happy to yield to someone--no. I yield back.
    Mr. Pitts. The Chair thank the gentlelady, and now 
recognize the chair emeritus of the full committee, Mr. Barton, 
5 minutes of questions.
    Mr. Barton. Thank you, Mr. Chairman. I was going to make a 
brief opening statement, which I didn't get to, so let me just 
summarize before I ask my questions.
    My lifetime voting record on pro-life issues is right at 
100 percent. I consider myself to be a pro-life Congressman. I 
think every life is precious. I think the Congress should do 
everything that we can to protect that life. I do recognize Roe 
v. Wade is the law of the land, and under that court ruling, I 
recognize a woman's right under legal conditions to choose to 
have an abortion.
    That is not what this debate is about. This debate is about 
a procedure that Planned Parenthood utilizes to take body parts 
and sell. That, I don't think, is in contention. I don't think 
there is any dispute that this practice is occurring. The 
question before the committee and to some extent the Congress, 
should we allow that practice or should we stop that practice? 
And if Planned Parenthood is the practitioner of that practice, 
should we stop funding Planned Parenthood because they continue 
to utilize it? That is the question.
    With that, I want to ask Dr. Yoest, does Planned Parenthood 
provide any service that other women's health organizations 
could not provide?
    Dr. Yoest. Thank you very much for that question, 
Congressman Barton.
    The short answer is no. And I appreciate having the 
opportunity to address that question, because as a woman and a 
breast cancer survivor, it is very troubling to me that Planned 
Parenthood continues to offer themselves as a first-line 
responder to issues like cancer and particularly breast cancer. 
They do not provide mammograms. They simply refer out for that 
service. And on occasion----
    Mr. Barton. I have got limited time.
    Dr. Yoest. Sorry.
    Mr. Barton. So Planned Parenthood is not the exclusive 
provider of services that other women's health organizations 
can also provide. That is correct, am I not right?
    Dr. Yoest. That is correct.
    Mr. Barton. Does Planned Parenthood, under current Federal 
law, have a guaranteed entitlement right to Federal Medicaid 
funding?
    Dr. Yoest. No, sir.
    Mr. Barton. They do not.
    If Congress were to explicitly strip Planned Parenthood 
funding, are there other women's health organizations already 
in existence that could accept those funds and provide the same 
services?
    Dr. Yoest. Yes, sir, to a very large degree.
    Mr. Barton. So all of these other women's health services, 
there are other organizations that don't utilize this procedure 
that could provide all the services that Planned Parenthood 
does provide that are for women's health, not for abortion and 
not for harvesting body parts for sale?
    Dr. Yoest. Yes, sir, and they can do it much more 
comprehensively.
    Mr. Barton. OK. Is there any, on this particular procedure, 
which I think is immoral and abhorrent, is there any medically 
necessary reason to utilize that procedure to get a body part 
to use in another medical situation?
    Dr. Yoest. No, sir, there is not. And, in fact, one of the 
more troubling issues in the videos is that they appear to be 
changing their procedure in order to get parts that they can 
then sell.
    Mr. Barton. OK. I assume that you have seen all of these 
videos. Is that correct?
    Dr. Yoest. Yes, sir, myself or my staff.
    Mr. Barton. OK. Now, the ranking member of the full 
committee, Mr. Pallone, has indicated they have been heavily 
edited, and that may be true. If he says it is true, I am going 
to assume that it is true. But what has been made available 
publicly, to your knowledge, has anybody from Planned 
Parenthood disputed what has been made publicly available? In 
other words, has anybody said, ``That is not true, we don't do 
that''? Has anybody at Planned Parenthood said, ``We don't 
conduct these procedures, we don't sell these body parts, we 
don't utilize this''?
    Dr. Yoest. No, sir, not to my knowledge.
    Mr. Barton. So they admit that they are doing it?
    Dr. Yoest. Yes, sir.
    Mr. Barton. With that, Mr. Chairman, I yield back.
    Mr. Green. Mr. Chairman, would you yield just a second?
    Mr. Barton. You can have the 20 seconds that I still have.
    Mr. Green. I would ask you to look at--when you are 
questions about can other providers do it, our Health and Human 
Services Commission in Texas in their report showed that they 
couldn't provide what Planned Parenthoodhas been doing. And, 
again, it is not my agency. It is a State of Texas agency.
    Mr. Barton. I respect my friend from Houston, we are good 
friends. On this one, I am told in Texas there is not anything 
that Planned Parenthood is doing that other agencies in Texas 
that are already certified could not also do.
    Mr. Green. But the report shows they can't do it. So be 
that as it may.
    Mr. Barton. I yield back.
    Mr. Pitts. The gentleman's time has expired.
    The Chair recognizes the gentlelady from Illinois, Ms. 
Schakowsky, 5 minutes for her questions.
    Mr. Schakowsky. OK. I want to just make a couple of things 
clear.
    You know, this is a very, very emotional issue. The issue 
of abortion is at the heart of this. And I just want to say 
that when Roe v. Wade passed it was not the beginning of 
abortions in the United States of America. It was the end of 
women dying from abortions. Abortions are legal because women 
will continue to have abortions and make their own decisions. 
So that is where I am coming from. I want to be clear about 
that.
    The other thing is that these attacks on Planned Parenthood 
I believe are a baseless smear campaign started with David 
Daleiden, an anti-abortion extremist, who spent years trying to 
entrap Planned Parenthood staff and then deceptively editing 
the videos he reported to stoke partisan anger. Again, I want 
to just note, I don't walk around with music behind me. 
Clearly, that was edited in.
    Four congressional committees have started investigating 
Planned Parenthood and States around the country are rushing to 
investigate. But not merely enough focus has been paid to Mr. 
Daleiden and his numerous unethical and potentially illegal 
activities. Mr. Daleiden and his associates obtained their 
nonprofit status from the IRS by representing themselves as a 
nonprofit focused on biomedical research aimed at curing life-
threatening diseases. They did not indicate that they were an 
anti-abortion political activist organization. They lied on tax 
forms and applications to the IRS, which is a serious and even 
criminal, that is under investigation, matter.
    The California law prohibits forgery, fraud, and perjury. 
And Mr. Daleiden and his associates created fake driver's 
licenses and those may have violated the law. And his 
activities may have also violated California's Invasion of 
Privacy Act, its prohibition of false charitable solicitations, 
and its law against impersonation and Federal and California 
laws against credit card fraud.
    And Mr. Daleiden continues to withhold key information from 
investigators and the public at large, and his attorneys say he 
intends to invoke his Fifth Amendment rights to avoid 
testifying in court. And it seems to me that Mr. Daleiden 
should release documentation about his organization's funding, 
affiliations, or practices, and release the full unedited 
versions of his video.
    So I believe that the majority should either suspend its 
one-sided investigation of Planned Parenthood or should fully 
investigate Mr. Daleiden. And I just resent the fact that we 
have been having this hearing using these videos in as 
explosive way as possible to color the discussion of these 
bills.
    And, by the way, even just the suspicion based on these 
highly edited videos could be enough then for a State to deny 
Medicaid funding. And let's be clear, if we want, as Ms. Waxman 
said, if we want to a discussion about the use of fetal tissue 
for medical research, then that is a separate conversation, 
used for investigating Alzheimer's and diabetes.
    And there is no proof, in fact I think there is proof to 
the contrary, that Planned Parenthood made a profit on this. It 
was in order to transport the tissue with the consent of the 
woman and done to pay for the transportation.
    I want to ask a question, though, just a quick yes or no of 
Dr. Yoest and Mr. Mattox. The Hyde amendment does have 
exceptions that would have exceptions including rape, incest, 
and endangering the life of the mother. I would like to know if 
you support exceptions to the Hyde amendment in the case of 
rape, incest, or endangering the life of the mother?
    Dr. Yoest.
    Dr. Yoest. Would you mind clarifying the context?
    Ms. Schakowsky. The Hyde amendment.
    Dr. Yoest. Right, but how you are applying it in this 
situation?
    Mr. Schakowsky. I am asking you a question as testimony 
relevant to these issues, these two bills that are before us, 
and I would like to know if you believe that there ought to be 
exceptions to abortion?
    Dr. Yoest. Americans United for Life was the organization 
that defended the Hyde amendment in front of the Supreme Court.
    Mr. Schakowsky. So is the answer yes?
    Dr. Yoest. We strongly support the Hyde amendment and we 
support the law as it is written.
    Mr. Schakowsky. OK. And Mr. Mattox.
    Mr. Mattox. I strongly support the law as it is written.
    Mr. Schakowsky. Thank you. I yield back.
    Mr. Pitts. The Chair thank the gentlelady.
    We have no time left. There are 100 people who still 
haven't voted. So we will recess for five votes on the floor. 
We will reconvene approximately 5:20. The subcommittee stands 
in recess.
    [Recess.]
    Mr. Pitts. All right. The subcommittee hearing will 
reconvene. And the Chair recognizes the vice chairman of the 
Health Subcommittee, Mr. Guthrie, 5 minutes for questions.
    Mr. Guthrie. Thank you, Mr. Chairman.
    I want to begin by saying how I am disgusted with the 
videos that we saw. And I know every time it comes up, people 
are saying: Oh, if you see them on TV, or wherever, they are 
highly edited and they are out of context.
    But as Mr. Barton asked and we found out, that nobody is 
debating the quotes that are in there. I mean, we need to look 
at the whole video, I agree with that. Nobody is debating the 
quotes. And those quotes, I am not sure you can take those out 
of context. I am not sure what context those are acceptable. 
And I am sorry just to hear that.
    First, I want to ask Mr. Mattox. In your testimony you say 
the courts have upheld the rights of a State to exclude, quote, 
``an entity from its Medicaid program for any reason 
established by law,'' unquote. Can you elaborate on that?
    Mr. Mattox. Sure. Under the Medicaid Act--and the 
legislative history of Medicaid Act also makes this very 
clear--the Federal Government has certain bases that it can 
exclude providers, but States are much more free. States can 
exclude for any other reason, is the term used in the Medicaid 
Act. They have a lot more power than the Federal Government 
does to exclude. And so States have excluded Medicaid providers 
on a number of bases that aren't set out for the Federal 
Government to exclude.
    That includes, in the Ninth Circuit--and I am not typically 
in the position of citing decisions from the Ninth Circuit--but 
in the Ninth Circuit, in Guzman v. Shewry, the court held that 
during a pending investigation, that a provider can be 
excluded.
    What that recognizes is that there is no liberty interest 
or a protectable right that Planned Parenthood or any other 
provider has to continuing to receive Medicaid funds. That is a 
privilege that they need to be able to earn from the taxpayers. 
They can go through an administrative process to appeal that if 
they would like to. But they don't have a right during a 
pending investigation to continue to receive those funds.
    And I think if you step back from this for a moment and 
imagine that we are talking about something other than Planned 
Parenthood, that that is a self-evident proposition. The idea 
that a Medicaid provider that, for example, is a gynecologist 
that has been accused of abusing women, the idea that we would 
require that Medicaid continue to provide funding to that 
doctor until a jury actually convicted them would be abhorrent 
to most people. So that is not the rule----
    Mr. Guthrie. I would like to continue with a couple more 
questions for you, if I can continue.
    Mr. Mattox. Sure.
    Mr. Guthrie. Your testimony also outlines a number of 
categories of misconduct from Planned Parenthood, and my 
understanding, most of these, in your testimony, were not from 
the videos. There were other things that you cited. All of 
which seems to be ground for State Medicaid programs to exclude 
that Planned Parenthood provider, clinic, or affiliate.
    What have States done to exclude Planned Parenthood in the 
Medicaid program?
    Mr. Mattox. States have acted in several ways. First of 
all, Texas actually made a decision to exclude Planned 
Parenthood from its Women's Health Program, which is a Medicaid 
waiver program.
    Interestingly, when it made that decision, I have heard 
some discussion about that here today, Planned Parenthood 
excluded them, and the number of contraception claims did 
immediately drop, but the actual pregnancy rate in Texas 
declined, as did the abortion rate in Texas. So we haven't seen 
in Texas the sort of public health catastrophe we were told to 
expect.
    But Texas has done that. Indiana has also taken action, as 
well as Arizona. And the Federal Government stepped in and told 
them they were no longer permitted to act in that way to manage 
their own Medicaid programs because Planned Parenthood was 
involved.
    Mr. Guthrie. Which leads to my next question, is that you 
also note that, quote, this is from your testimony, ``Medicaid 
providers cannot usually rely on the support of the Federal 
Government, including reinterpretation of the Medicaid Act, 
when a State disqualifies them from its Medicaid program. 
Planned Parenthood is a unique case.''
    Can you elaborate on this?
    Mr. Mattox. Sure. There have been over the last two decades 
or so about 9,000 providers excluded from Medicaid, and in most 
of those cases they are completely uncontroversial. People 
don't question that at all. When it is Planned Parenthood, 
however, you have the Center for Medicaid Services reinterpret 
the Medicaid statute to deny States the opportunity to exclude 
those providers. That is a privilege that other providers don't 
get to have.
    Mr. Guthrie. Thanks. And discovering that a provider 
violated Federal laws related to fetal tissue procurement 
certainly sounds like a provider failing to act in an ethical 
manner and should be grounds to terminate their status as a 
provider. Can you elaborate on that statement?
    Mr. Mattox. Sure. That is actually from a decision from the 
Seventh Circuit decision. The Seventh Circuit clarified that 
while an entire class of providers couldn't be excluded, but 
when you are talking about the State's power to exclude an 
individual provider, that the State absolutely had the 
authority to exclude not only on legal grounds, but also on 
ethical grounds a provider, which I would think most of us 
would think is a good thing.
    Mr. Guthrie. In my last 10 seconds, I am just hopeful that 
we can clarify the Federal law, ensure States are able to allow 
or exclude providers from their Medicaid program.
    I thank you for the witnesses being here, and I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentlelady from Florida, Ms. Castor, 5 
minutes for questions.
    Ms. Castor. Thank you.
    Well, I respect my colleagues and my neighbors and many 
Americans have deeply held beliefs on the issue of personal 
health matters. But that is not what this is about. Today we 
are spending our time on a politically manufactured 
distraction. Republicans in Congress hope that you will be 
distracted from their failure to meet their fundamental 
responsibility of passing a budget because we are 6 legislative 
days away from shutting down the Government.
    But make no mistake about it, this is also an insult to 
women and families all across America. I am very disappointed 
in this committee, Mr. Chairman, very disappointed, because 
this committee is party to lies, a smear campaign on Planned 
Parenthood, doctored videos. I objected early on because a few 
weeks ago press reports established the fact that the Center 
for Medical Progress, that video that you showed, was wholly 
inaccurate, and they said it was inaccurate, and you showed it 
anyway.
    And I will read from the Christian Post: ``The Center for 
Medical Progress clarified that in its most recent video, the 
baby depicted is from a stillborn birth.'' It is not a second 
trimester baby from Planned Parenthood. And I would have to 
think that your professional staff and maybe even some of the 
members on your side knew that. It was reported in the 
Christian Post. It was reported in The Hill. It was reported in 
other publications.
    You know that stillborn baby, where that picture came from? 
It came from the blog of the grieving mother. It is not what 
you purported it to be. It is not what this group that is 
smearing and putting out these doctored videos said that it 
was. And the committee should not be a party to that.
    I will submit for the record these press reports and ask 
that you please read them.
    But you know, this is a disturbing pattern, and I wanted to 
focus also on what has happened in my home State of Florida. 
Because in July, after these videos surfaced, my Republican 
Governor, Rick Scott, ordered an investigation of all Planned 
Parenthood clinics across Florida, not other clinics, and it 
was determined, after investigation by the Agency for Health 
Care Administration, that there was no ``there'' there.
    What happened subsequently falls into this pattern of 
doctoring evidence and distortions. You see, the Agency for 
Health Care Administration then put out a press statement, a 
press release, to establish the fact, and here is their 
language, they put out a press release, said, ``Our 
investigation last week into Planned Parenthood clinics,'' blah 
blah, blah, ``however, there is no evidence of the mishandling 
of fetal remains at any of the 16 clinics we investigated.''
    But the press, the reporters in Florida did a public 
records request after the final press release came out that 
omitted this line, and it turns out that the press shop in the 
Governor's office took the Agency for Health Care 
Administration's press release and scrubbed it of that finding.
    Just yesterday, the communications director from the Agency 
for Health Care Administration resigned. I am sure the Governor 
was not happy with the fact that emails were discovered by the 
press in Florida where the communications director said, ``I 
would have thought a line on no handling of fetal remains would 
be included, as that is what questions will be on.'' The 
agency's secretary said agrees with the comment. Reporters 
subsequently obtained both versions, and it has been uncovered 
the Governor's office scrubbed it. He orchestrated the whole 
thing. This is part of a very disturbing pattern all across the 
country based on manufactured evidence, lies, and a smear 
campaign.
    It is beneath the dignity of this committee. It undermines 
the important work we do to ensure women's health care, and I 
would hope that everyone would disavow what is happening here, 
this smear campaign on women's health and the clinics they rely 
on.
    I will yield the remaining time to Mr. Green.
    Mr. Green. Thank you.
    Ms. Castor. Oh, excuse me. I will ask unanimous consent 
that those be admitted into the record.
    Mr. Pitts. Without objection, these will be made part of 
the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Green. I would like to ask questions of Dr. Yoest and 
also Mr. Mattox and even Ms. Waxman. There is a report I 
submitted from the Texas Health and Human Services Commission, 
and your testimony in question said that there was no results. 
I want to call your attention to it.
    And I am going to read it, Mr. Chairman. This is by a State 
agency that did a study on what happened after 2011. We 
actually saw a 25 percent drop in clients served in the Human 
Health Services Commission area, 25 percent loss from '11 to 
'13. So somewhere along the way, a lot of women, in a time 
Texas was growing, are no longer getting healthcare services in 
every region except the Upper Rio Grande Valley. The High 
Plains area, a loss of 53 percent, West Texas, a loss of 64 
percent of services, people getting services.
    So there is a problem here. And, Mr. Chairman, again, I am 
going to use this every time I get a chance because your 
testimony does not go with the facts that a Texas State agency 
used.
    Mr. Pitts. The gentleman's time has expired.
    The Chair recognizes the gentleman, Dr. Murphy, 5 minutes 
for questions.
    Mr. Murphy. Thank you. I am going to yield to Mr. Shimkus.
    Mr. Shimkus. I thank my colleague.
    And these are difficult issues, and I think, as I told some 
of the folks on the panel, those of us who are pro-life and 
vote that way who have served many, many years, we are saddened 
that these things still occur in our country.
    On Tuesday, I did a press conference tour of my district 
outside three Planned Parenthood clinics. Tuesday. One was 
closed, wasn't even open. So I want to talk about the access to 
care issue a little bit.
    But before I do this, some of this moral outrage, and one 
of the benefits of being a MSember for a long time is you have 
the benefit of history. And we had a hearing when Republicans 
were in the minority on secret videos taken in a meatpacking 
plant. Downed cows. There was more outrage over the treatment 
of downed cows than we have of treatment of downed kids, 
babies. And there was no objection to the videos being 
presented. In fact, they didn't even call the video people to 
the hearing. It is just unfortunate that, again, I do think 
there is a double standard.
    And also I want to mention the healthcare aspects. The 
other thing I did in Illinois, why I went to them is because 
federally qualified healthcare clinics in Illinois, we have 670 
better alternatives for women's health care and only 18 Planned 
Parenthood locations. So this debate about our ability to 
affect women's health care, in fact, by these bills that we are 
going to move through the House, we are going to be able to 
provide better care because Planned Parenthood clinics don't 
provide all the range of health care.
    I am not a supporter of the Affordable Care Act, I didn't 
vote for it, I don't believe in it, I think it was terrible, 
but the premise of the Affordable Care Act was medical homes 
for people could go to have a medical home and a medical 
location for records. Guess where your medical home is? It is 
not in a Planned Parenthood clinic. Your medical home is found 
in a federally qualified healthcare clinic.
    So we are on the right track if we move this debate to 
improving access to health care, expanding federally qualified 
healthcare clinics, rural clinics, in my case. I am in southern 
Illinois, three Planned Parenthood versus 40 accesses to rural 
care or community health clinics.
    Mr. Mattox, the question I have, going back to the videos, 
do you believe these videos actually depict Planned 
Parenthood's practices?
    Mr. Mattox. I believe--first of all, you actually have a 
letter from Cecile Richards, which I assume is an unedited 
letter from Cecile Richards, in which she actually says that 
Planned Parenthood is receiving $60 per part. At no point in 
that letter does she also say how they are actually accounting 
for that, how that applies in some way to any actual expenses. 
And remember that StemExpress, at least, is actually coming 
into the clinic. I have often seen the citations to, well, 
these are situations where, you know, this is compensating for 
transportation or storage. Well, it is not compensating for 
transportation or storage in those cases. And that is outside 
of the videos.
    The full versions of these videos, let's be absolutely 
clear, if you have access to YouTube, you have access to the 
full versions of these videos. They are on YouTube. I know that 
because I have watched the full versions of the videos. They 
are there. As a matter of fact, without music.
    So you can watch the full versions of the videos. The only 
portions of the videos that have been edited out are the 
portions when Mr. Daleiden or someone is in the bathroom, and I 
think we can all be grateful that he edited those portions out, 
and the portions where no one else is in the conversation, 
where it is him sitting alone or otherwise. So the full 
versions are available.
    Mr. Shimkus. In follow-up, do you think States should be 
able to take action on these videos?
    Mr. Mattox. Absolutely. The Guzman case in the Ninth 
Circuit indicates that States do not have to wait when they 
have reasonable belief that the law has been violated. They can 
suspend a Medicaid provider without having to have that person 
convicted by a jury.
    Mr. Shimkus. Thank you.
    And I am just going to finish by, obviously there is a list 
of services provided under federally qualified healthcare 
clinics versus those services provided by Planned Parenthood. 
The services provided by Federal healthcare clinics, family 
homes, far outweigh anything provided at the Planned Parenthood 
clinics. And I yield back my time.
    Mr. Pitts. Did you say you wanted to submit that for the 
record? I didn't understand.
    Mr. Shimkus. No, I didn't.
    Mr. Pitts. All right. The Chair thanks the gentleman and 
now recognizes Ms. Matsui, 5 minutes for questions.
    Ms. Matsui. Thank you, Mr. Chairman.
    First of all, I just want to point out that you are saying 
that these are--people have said that there are unedited videos 
out there, but we don't have any proof that they are unedited 
videos. So that is just out there. We don't believe that they 
truly are unedited. And I want to go back to my questions here.
    Now, Professor Waxman, I am going to get back to these 
radical bills. Each gives States the power to cut off funding 
to any provider that is, quote, ``suspected of violating the 
partial-birth abortion ban or causing the termination of an 
infant born alive.'' I want to see if you can help me 
understand what this evidentiary standard might mean in 
practice.
    If these bills became law, could a State that suspected a 
health center was violating these laws based on an anonymous 
tip cut off funding?
    Ms. Waxman. I believe so, yes.
    Ms. Matsui. Could a State that suspected a violation based 
on doctored videos released by an anti-abortion extremist cut 
off funding?
    Ms. Waxman. I don't see why not.
    Ms. Matsui. Does the legislation say anything about what 
evidence a State must provide to satisfy the standard for 
suspecting a violation?
    Ms. Waxman. No, it does not.
    Ms. Matsui. Does the legislation say anything about the due 
process a State must provide before it cuts off funding?
    Ms. Waxman. No, it does not.
    Ms. Matsui. Well, these bills would give State politicians 
who are opposed to abortion free rein to slash funding for 
women's health care based on nothing more than their own 
political views and a suspicion. Do you agree with that?
    Ms. Waxman. Definitely.
    Ms. Matsui. Let me ask you another question. What do you 
think the impact of these bills would be? Would States start 
slashing funding for women's health centers? Would access to 
reproductive health care increase or decrease?
    Ms. Waxman. I think the goal of this particular legislation 
is clearly to go after Planned Parenthood and other--I will 
assume, although it hasn't been mentioned--other healthcare 
providers that perform abortion. This bill is about abortion.
    There could be, you know, a hospital system in your State 
where in fact the hospital does do abortion, and it could very 
well happen that a politician might have some suspicion that 
there was wrongdoing in that hospital system, and then the 
whole system loses its Medicaid funding, all the services that 
it would provide.
    There is in the Medicaid statute already, as has been 
testified, ways that if someone is convicted of a crime that 
would hurt the beneficiary of the program, they can then be 
excluded from the program. That is already law. If somebody 
would break the law, and that is actually be convicted of a 
partial-birth abortion, that already exists. If someone is 
convicted in a State, and I assume the State law would have 
laws against terminating a live birth, that person could be 
excluded.
    Obviously, due process protections would apply, but if 
someone really did break these laws, the provisions already 
exist to exclude that provider from the program. And putting a 
law out there that just makes the suspicion the cause for 
ending Medicaid funding goes way, way beyond any law, I 
believe, in the whole country.
    Ms. Matsui. OK. Now, the majority continues to claim that 
current Planned Parenthood funding could be redirected to 
existing community health centers and that with this additional 
funding these community health centers could adequately absorb 
the increased demand that would inevitably follow if Planned 
Parenthood were to close its doors.
    Can you describe if there are enough clinics, if there is 
adequate capacity in existing the healthcare system to absorb 
all of Planned Parenthood's patients?
    Ms. Waxman. There seems to be, I think, some talking across 
each other in that Planned Parenthood does not get blocks of 
money from Medicaid to do whatever it wants. Like any medical 
provider, like a private doctor, if they perform a service that 
is covered for a covered individual, then they get reimbursed, 
and, again, generally, at a pretty low reimbursement, 
unfortunately.
    So it isn't as if there is some kind of pot of money that 
is helping them exist. They are professionals that do these 
very high-quality services in this area. And if people come to 
them that have Medicaid or private insurance, that is the 
reimbursement that they get.
    Now, the community health centers have already said that 
they don't have the capacity right now to actually provide care 
for the patients that are coming their way. They have said, for 
every patient they serve, another three are going without 
primary care. We would have to enormously increase the number 
of community health centers if we really wanted to make sure 
the capacity was there.
    Ms. Matsui. Well, thank you.
    Ms. Waxman. Additionally, as I mentioned in my testimony, 
there is a public program, Title X, that gives dollars for 
family planning. This body, the Appropriations Committee has 
already zeroed that out in the next budget, so we wouldn't be 
able to count on them.
    Ms. Matsui. Well, thank you very much. My time has run out.
    Mr. Pitts. The Chair thanks the gentlelady, and now 
recognizes Dr. Burgess, 5 minutes for questions.
    Mr. Burgess. Thank you, Mr. Chairman. Mr. Chairman, you 
began your questioning by showing us three film clips, and in 
that third film clip where the discussion was ``you crush 
above, you crush below, and you get the part that you want in 
between,'' and this was all done under sonographic guidance, I 
would just ask, Mr. Chairman, I do want the committee, the 
subcommittee, to make an effort to retrieve any ultrasound 
electronic media that may have been created during the 
performance of these procedures because I believe it could be 
instructive to the subcommittee to actually have that.
    Dr. Yoest, let me just ask you. Is your organization 
affiliated with the Texas--is there a Texas organization that 
is an adjunct of yours? Texas Alliance for Life, is that 
associated with you?
    Dr. Yoest. No, sir.
    Mr. Burgess. OK.
    Mr. Chairman, I do want to submit for the record an article 
that discusses the Texas Alliance for Life. This is a 
PolitiFact article where the leader of the Texas Alliance for 
Life asserts that funding for women's health is actually at an 
all-time high in the State of Texas.
    His statement was taken to task by PolitiFact. And as we 
know, they tend to be relatively left leaning. But the 
conclusion--and I do want to submit the entire article to the 
committee--the statement that was made that in Texas funding of 
women's health services is at historically high levels. And 
they have just increased their level another $50 million for 
the next 2 years.
    And, again, Texas lawmakers this year voted to appropriate 
more for women's health services than before, including a $50 
million bump. And I would just parenthetically add, it was my 
State senator, Senator Jane Nelson, who is the chairwoman of 
the Senate Finance Committee, who was responsible for that $50 
million bump.
    But the bottom line on this PolitiFact article is, ``We 
rate this claim to be true.'' And again, PolitiFact is not 
always friendly to conservative causes.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Now, Mr. Mattox, Mr. Green has been talking 
about a report from the Health and Human Services Commission 
from January of 2013. Do you have that report? Are you familiar 
with that?
    Mr. Mattox. I have seen that report. I have read that 
report.
    Mr. Burgess. And I guess that I am confused, because Mr. 
Green is sort of outlining a case where Texas is in pretty dire 
straits as far as being able to provide services, and, gosh, if 
we go after any one dime in Planned Parenthood funding it is 
going to create all kinds of havoc in the State of Texas.
    But this article or this report that he is referencing, 
here is the conclusion: ``Overall, the Texas Women's Health 
Program patient capacity survey results are positive. In most 
areas, the survey found that the State has the capacity to 
serve even more women in 2013.'' Remember, this was done in 
response to the fact that Governor Perry in 2011 said we are 
not giving any money to Planned Parenthood.
    ``Capacity was especially robust in the Rio Grande Valley, 
San Antonio, Houston, Austin, and the Abilene areas. The survey 
identified one area, San Angelo, where there was likely a 
capacity deficit.'' But it is not really--the tenor of the 
report is not exactly that which was portrayed by the ranking 
member of the subcommittee.
    So do you have any thoughts on this report that has been 
talked about at some length today and what the state of these 
services are in the State of Texas?
    Mr. Mattox. Certainly. Texas' experience is that after 
Planned Parenthood was excluded, there was a very initial 
period where Texas had difficulty trying to find the right 
providers. They found those providers. And the result now in 
Texas is that--and these are uncontroversial conclusions from 
the State--the abortion rate has declined in Texas, the 
pregnancy rate has declined in Texas. So that has happened.
    What we found is that when Planned Parenthood was taken out 
of the picture, the abortion rate and the pregnancy rate 
declined. Whether that is causation, I don't know.
    But one reason why you might have seen the drop in claims 
actually submitted, another audit was just filed in March this 
year from HHS OIG that found another $129 million in 
overbilling to the same Women's Health Program, the same Texas 
Women's Health Program by Planned Parenthood.
    So it very well may be that a lot of these contraceptive 
claims that Planned Parenthood was no longer filing were claims 
that they never should have been filing in the first place.
    Mr. Burgess. It is an interesting point and one that I, 
again, I think does deserve further study by this subcommittee. 
And I hope we have an opportunity to do that.
    But let me just ask you: Is it really that unusual for CMS 
to withhold funding in an area where they think something is 
amiss? Is this really a drastic departure from any normal 
behavior by CMS?
    Mr. Mattox. Well, for CMS to act this way, it certainly is. 
For a State to act that way, no. For CMS to say we are no 
longer going to allow a State to make a decision about its 
Medicaid program because you have excluded a provider is a very 
new thing, and it is something that they have done with respect 
to Planned Parenthood, and I am not aware of any other provider 
that has received that kind of treatment.
    For a State to act that way and say we are going to exclude 
certain providers because we think they are in violation of the 
law, States do that with some frequency. And there should be no 
question as to a State's power to do that, not only when there 
are convictions, but I would hope we could all agree that when 
a provider is suspected of fraud, as was the case in the Guzman 
case, that we are not going to require the Government to 
continue to provide taxpayer money to an organization suspected 
of fraud, for example, while we find out if they are actually 
going to be convicted of that.
    Mr. Burgess. Thank you, Mr. Chairman. I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    I now recognize the gentleman from Massachusetts, Mr. 
Kennedy, 5 minutes for questions.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Dr. Yoest, did you use the videos that were shown earlier 
at this hearing as part of your investigation?
    Dr. Yoest. I am sorry?
    Mr. Kennedy. Did you use the videos that were shown as part 
of this hearing in your investigation that you quoted, and you 
got a chart put up earlier detailing the investigation that you 
have entered into to try to say that Planned Parenthood engaged 
in these activities?
    Dr. Yoest. I consulted the videos in putting together the 
chart, yes.
    Mr. Kennedy. OK. Did you ever conduct an analysis of the 
authenticity of those videos?
    Dr. Yoest. Of the authenticity of the videos. As the 
chairman stated, the full videos are available online----
    Mr. Kennedy. Did you conduct----
    Dr. Yoest [continuing]. And our team has reviewed the full 
videos that are available online.
    Mr. Kennedy. So the full videos, not the videos that we saw 
then up here, but the full videos, you say, you didn't, and 
that informed your investigation.
    Dr. Yoest. Yes. And we have submitted to the Energy and 
Commerce Committee a 28-page legal analysis of the full videos.
    Mr. Kennedy. Of the full videos. OK. Thank you.
    Do you have any idea how many, currently, how many House 
committees are conducting investigations of Planned Parenthood?
    Dr. Yoest. I believe it is three. Three here and one in the 
Senate.
    Mr. Kennedy. And do you have any idea how many States are 
conducting independent investigations of Planned Parenthood? I 
will give you----
    Dr. Yoest. It is 12ish.
    Mr. Kennedy. Twelveish is fine. Do you have any idea of how 
many of those in total 16 investigations have resulted in 
criminal charges to date?
    Dr. Yoest. With all due respect, sir, I think it is still 
really early----
    Mr. Kennedy. To date, ma'am.
    Dr. Yoest [continuing]. With an investigation that is--as 
it was stated earlier----
    Mr. Kennedy. Zero is the answer, right?
    Dr. Yoest [continuing]. Investigations are still ongoing.
    Mr. Kennedy. So I believe that is an answer, then zero, 
correct?
    Dr. Yoest. So far.
    Mr. Kennedy. OK.
    Ma'am, it has been a little while since I was trying cases. 
You mentioned in response to a question to one of our 
colleagues that the burden of proof would be on Planned 
Parenthood to try to disprove part of the allegations that were 
being made. Under what theory of criminal law would the burden 
of proof shift to them to disprove the allegations that a 
criminal charge would be brought?
    Dr. Yoest. Can I clarify what my comment was?
    Mr. Kennedy. Please.
    Dr. Yoest. My assertion would be that the burden of proof 
is on Planned Parenthood to respond to something that is as 
serious an accusation with evidence that is as troubling as 
what we have seen to having their senior medical director on 
tape saying that she considers the law to be a suggestion----
    Mr. Kennedy. But the burden of proof is not in a criminal 
sense at all.
    Dr. Yoest. Pardon?
    Mr. Kennedy. Not in a criminal sense at all, because if a 
charge is brought criminally, the burden of proof--I am asking 
you what legal theory--under what legal theory does the burden 
of proof shift to a defendant?
    Dr. Yoest. I wasn't asserting a legal theory. I was 
asserting common decency.
    Mr. Kennedy. OK.
    Mr. Chairman, I would like unanimous consent to enter into 
the record from the National Women's Law Center and the 
National Health Law Program a letter about the role of Medicaid 
in ensuring low-income women's access to health care. The 
letter, Mr. Chairman, states, quote: ``It is no overstatement 
to say that if H.R. 3134 were to become law, our country would 
face a significant public health crisis.''
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Kennedy. Thank you.
    Ms. Waxman, I have about a minute and a half for you. A 
couple of questions.
    Mr. Mattox had indicated in his testimony that States are 
permitted to suspend Medicaid providers during the pendency of 
an investigation into whether a provider violated a State or 
Federal law. Is that your understanding as well?
    Ms. Waxman. I think what he is referring to is this one 
case that he has mentioned a couple times where in fact there 
was one individual in an egregious situation and one circuit 
court that said it was OK to suspend the individual's Medicaid 
payment during that time. But beyond that, I don't think so.
    Mr. Kennedy. And, Professor Waxman, in your expertise and 
review of this legislation, do the bills in question define 
what ``suspicion'' means?
    Ms. Waxman. No, it did not.
    Mr. Kennedy. So to clarify, a provider system or healthcare 
system under this legislation could potentially lose Medicare 
dollars on the suspicion that one of its doctors or medical 
providers had violated some aspect of what this legislation 
contemplates.
    Ms. Waxman. That is right.
    Mr. Kennedy. The entire system.
    Ms. Waxman. That is right.
    Mr. Kennedy. So in other words, is it fair to say that 
these bills undermine the ``any willing provider'' principle of 
Medicaid regulations as well as due process?
    Ms. Waxman. Without a doubt.
    Mr. Kennedy. So, ma'am, in your opinion, is that what 
happened last month in Louisiana when the State terminated its 
agreement with Planned Parenthood Gulf Coast provided that it 
does not provide any abortion services at all and was found to 
be in compliance with all State and Federal law, and were due 
process principles and the ``any willing provider'' principle 
violated there?
    Ms. Waxman. Yes. The ``any willing provider'' provision, 
because there aren't that many Medicaid providers, that is why 
the law recognizes anyone who is willing to take that 
reimbursement should take patients, any qualified provider, of 
course, and that is why Louisiana could not eliminate Planned 
Parenthood.
    Mr. Kennedy. Thank you. Yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from New Jersey, Mr. Lance, 5 
minutes for questions.
    Mr. Lance. Thank you, Mr. Chairman.
    Mr. Mattox, you stated in your testimony that you explained 
how CMS issued a new set of interpretations based upon the 
existing statute. The new interpretation was in 2011 related to 
States' use of qualified medical providers. Could you explain 
in a little more detail what CMS did and your reviews on what 
CMS did in 2011 based upon an underlying statute that predates 
2011?
    Mr. Mattox. Sure. What CMS did was to interpret--issue an 
interpretation of the Medicaid Act to say that States could not 
exclude a provider where it would violate this ``free choice of 
provider'' provision, applying that specifically--or a class of 
providers--applying that specifically to decisions made by 
Indiana and later Arizona to exclude abortionists broadly.
    More recently what CMS has done is to take that decision, 
saying that you can't exclude a class of providers, and apply 
it to a State's decision to exclude an individual provider in 
Planned Parenthood.
    Mr. Lance. Yes. Ms. Waxman or Professor Waxman or Dr. 
Waxman, is that your understanding of what occurred with the 
CMS in 2011?
    Ms. Waxman. Yes. I don't know what the last item he was 
referring to, but certainly before that, in the earlier date, 
that is true.
    Mr. Lance. Thank you. So I am trying to reach a situation 
where we can agree on what the state of the law is before we 
change the law, and it is my view that everybody on the panel 
should have the opportunity to speak. I think you have been 
before this panel before, and that has been my position before.
    Now, in the wake of CMS' 2011 interpretation, the Seventh 
and Ninth Circuits have held, on the basis of Medicaid free 
choice and qualified provider provision, that States may not 
exclude an entire class of otherwise qualified providers. Is 
that accurate? Do you both agree with that?
    Ms. Waxman. Yes.
    Mr. Mattox. Yes.
    Mr. Lance. However, as I understand it, also that the 
courts have ruled that a provider can be excluded so long as it 
is not based upon an entire class. And I cite Planned 
Parenthood v. Indiana, of Indiana v. Commodore, is that right, 
is that the case, Mr. Mattox?
    Mr. Mattox. Commissioner.
    Mr. Lance. Commissioner. I guess because one of my degrees 
is from Vanderbilt, the Commodores. And that was the Seventh 
Circuit, and the cert was denied by the Supreme Court of the 
United States. Is that accurate?
    Mr. Mattox. That is correct, yes, sir.
    Mr. Lance. And so that stands as the law in the Seventh 
Circuit. Is that the law in any other circuit or has only the 
Seventh Circuit ruled on this?
    Mr. Mattox. Only the Seventh and the Ninth Circuit have 
ruled on that.
    Mr. Lance. And the Seventh Circuit is in the Middle West 
and the Ninth Circuit is in the West.
    Mr. Mattox. Right.
    Mr. Lance. And so we have two circuit decisions that have 
permitted the disqualification of individual providers based 
upon the views of the State Government.
    Mr. Mattox. Well, those two decisions said that you 
couldn't exclude an entire class of providers. What the Seventh 
Circuit then went on to say was that the State does have very 
broad power, much broader than the Federal Government, to 
exclude an individual provider----
    Mr. Lance. Yes.
    Mr. Mattox [continuing]. For both legal and ethical 
reasons.
    Mr. Lance. And that is a decision, according to those 
circuits, or at least the Seventh Circuit, that can be made, 
and it is not a standard of proof based upon the criminal 
standard of proof, that States have broad discretion in this 
regard.
    Mr. Mattox. That is correct.
    Mr. Lance. And so we are not discussing here proof beyond a 
reasonable doubt, the criminal standard that, quite 
appropriately, applies in this country and should continue to 
apply regarding all matters of indictment for a criminal 
offense. We are not in that area of law regarding the broad 
discretion of States, under the sovereign power of States. And 
I come from a State legislature, I was the minority leader, and 
I believe in the powers of States, comity with what we do here, 
and certainly the courts have ruled, to the extent that they 
have ruled, that States have broad discretion in this regard. 
Is that accurate?
    Mr. Mattox. That is correct. And in this case you actually 
have a--you know, this a question of whether a provider is 
entitled to Government money. They are not entitled to 
Government money.
    Mr. Lance. This is not a situation where they are entitled. 
States have broad discretion.
    With 12 seconds to go, my point, Mr. Chairman, is that I 
believe in the power of States to have broad discretion, and I 
would hope that that might be the rule, if it were to be 
established by the Supreme Court, if this were ever to reach 
the Supreme Court. Thank you, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from California, Mr. Cardenas, 
5 minutes for questions.
    Mr. Cardenas. Thank you very much, Mr. Chairman.
    Witnesses, I only have a short period of time, so I would 
appreciate yes-or-no answers to my questions.
    Congress is remarkably transparent. You can see the cameras 
filming us right now, and you can watch us on C-SPAN when you 
get home or any time you would like you can bring it up. You 
don't even have to have a hidden camera here. We are very 
transparent.
    That having been said, I have a question first to Dr. 
Yoest. Have you seen any pro-life organizations who have 
created similarly manipulated videos showing this Government 
making cuts in prenatal care funding? Yes or no? Have you seen 
any videos like that?
    Dr. Yoest. I am sorry. Could you repeat the question?
    Mr. Cardenas. Have you seen any videos, manipulated or not, 
that show this Government making cuts to prenatal care?
    Dr. Yoest. Not that I am aware of.
    Mr. Cardenas. OK. Thank you.
    Same question to you, Mr. Mattox, are you familiar with any 
videos like that showing those actions?
    Mr. Mattox. I am aware of something very similar where 
there was an organization, NARAL, who did investigations of 
pregnancy resource centers.
    Mr. Cardenas. Yes or no, please.
    Mr. Mattox. So, I mean, NARAL did those investigations 
secretly, and you had a report that was actually submitted, the 
Waxman report, which is a well-known report, that was based on 
that sort of surreptitious evidence.
    Mr. Cardenas. OK. Mr. Mattox, have you seen any pro-life 
organizations who have created similarly manipulated videos 
showing the Government making cuts to medical care for infants 
in this Nation?
    Mr. Mattox. Other than NARAL's efforts, I don't know of 
another example like that.
    Mr. Cardenas. OK.
    And, Dr. Yoest, have you seen any pro-life organizations 
who have created similarly manipulated videos showing this 
Government making cuts in early childhood education?
    Dr. Yoest. I can't say that I recall that.
    Mr. Cardenas. OK. Thank you.
    Finally, Mr. Mattox, have you seen any pro-life 
organizations who have created similarly manipulated videos 
showing the Government making cuts in funding for food and 
medicine that otherwise would go to starving sick children and 
mothers in this Nation?
    Mr. Mattox. I would first have to object to the term 
``manipulated,'' because these videos, the full versions of the 
videos have been released.
    Mr. Cardenas. You didn't show full versions here as you 
made your presentation, so that is what I am going on, sir, 
what you presented today--excuse me--what Dr. Yoest presented 
today before both of your testimonies.
    Mrs. Blackburn. Mr. Chairman, I think that we need to 
clarify. He did not present those videos. Mr. Mattox did not 
present those videos.
    Mr. Cardenas. I just clarified that he did not.
    Mr. Green. Mr. Chairman, whose time is being used on this? 
Shouldn't it be a parliamentary inquiry instead of taking Mr. 
Cardenas' time?
    Mr. Pitts. Yes, it should be.
    Do we have a point of parliamentary inquiry? If not, Mr. 
Cardenas, you are recognized.
    Mr. Cardenas. You reserving my time or--OK.
    So the videos that were shown today in this committee were 
not the full-length videos, suffice it to say. So I will go on.
    Ms. Waxman, you heard all of these questions. Have you 
heard any pro-life organizations making videos that create 
similar outcries and false narratives in this area?
    Ms. Waxman. No.
    Mr. Cardenas. Thank you.
    You know, I have asked you these questions because I have 
not seen a pro-life organization come out and attack my friends 
on the right who have devastated every service that provides 
for the health of babies once they are born. In fact, I have 
heard so much about personhood lately and about life beginning 
at conception that it caused me to realize something, and that 
is that people who say life begins at conception seem to 
believe it ends at birth when we look at all the cuts to what I 
just mentioned.
    The people who say they are pro-life who will go to the 
ends of the Earth to defend a fetus have consistently, over 
decades and decades, made budget cuts with anti-science 
rhetoric and outright disregard for the lives of children whose 
hungry and sick cries echo throughout our Nation and have cut 
to the bone funding to keep them healthy and alive.
    We have one of the highest infant mortality rates in the 
industrialized world. More American babies die in infancy in 
this country than in Canada, in Croatia, and even in Cuba. I 
can't help but think maybe because there is no political gain 
to be had in caring for our kids, but there is plenty of money 
to be made in riling up people with anger and misinformation.
    The vast majority of what Planned Parenthood does is to 
keep mothers, children, and families healthy, and now there is 
an attack to even cut that.
    I have a question for you, Ms. Waxman. Have you noticed 
that my Republican colleagues have failed to admit the truth 
about the contributions of Planned Parenthood overall?
    Ms. Waxman. I would say yes.
    Mr. Cardenas. OK. Thank you for answering the question.
    Basically too many people in this room are dodging the real 
issue, and if I wanted to see people dodge, I would go 
someplace else. I would never think that I would have to be in 
the committee of Congress to see that happen.
    Thank you. I yield back my time.
    Dr. Yoest. May I respond very briefly?
    Mr. Cardenas. I yield back my time.
    Mr. Pitts. The gentleman yields back.
    The Chair recognizes Mr. Griffith, 5 minutes for questions.
    Mr. Griffith. Dr. Yoest, you wanted to respond briefly. 
Please do so.
    Dr. Yoest. Thank you, sir.
    I would just like to briefly object to the characterization 
of the pro-life movement, and I would like to invite you, sir, 
to visit a pregnancy care center in California that takes care 
of babies after they are born.
    Mr. Griffith. Thank you very much. And, Dr. Yoest, I am 
going to read you some testimony from the past.
    ``Dr. Haskell went in with forceps and grabbed the baby's 
legs and pulled him down into the birth canal. Then he 
delivered the baby's body and the arms, everything but the 
head. The doctor kept the head right inside the uterus. The 
baby's little fingers were clasping and unclasping, and his 
little feet were kicking.
    ``Then the doctor struck the scissors into the back of his 
head, and the baby's arms jerked out like the startled 
reaction, like a flinch, like a baby does when he thinks he is 
going to fall. The doctor opened up the scissors and stuck a 
high-powered suction tube into the opening and sucked the 
baby's brains out.
    ``Now the baby went completely limp. He cut the umbilical 
cord and delivered the placenta. He threw the baby into a pan, 
along with the placenta and the instruments he had just used.''
    Do you recall that testimony being in a prior case? And if 
you don't, that is OK. Yes or no?
    Dr. Yoest. Roughly speaking, yes.
    Mr. Griffith. Yes, ma'am. And at the time--that was 
partial-birth abortion--and at the time, Roger Evans, Planned 
Parenthood's senior director for public policy litigation, 
says, ``There is no substance to the opponents' arguments. That 
is ideological poppycock, totally unsupported by the 
medicine.'' Evans says, ``The judges who have heard the 
testimony on the subject have consistently concluded it is a 
safer method of abortion for many women and it is a medically 
necessary method of abortion for women in some circumstances.'' 
That is a quote from CQ Researcher back in 2006.
    And the quote I gave you earlier actually came from the 
Gonzales v. Carhart case in the majority opinion where they 
were talking about partial-birth abortion and how bad it was.
    Now, earlier we heard testimony from Ms. Waxman that, you 
know, if somebody was found guilty of violating partial-birth 
abortion that, you know, they would be convicted and that would 
be a different story.
    You made the point earlier that you were not making a 
legalistic case, you were making a moralistic case in answering 
questions from Mr. Kennedy, and I think that is instructive. 
Because just like the O.J. Simpson case, you may not have the 
evidence to put somebody in jail because that is a beyond-a-
reasonable-doubt standard, but you might have the evidence to 
take their money away from them, which is exactly what happened 
in the O.J. Simpson case.
    And isn't that what these bills are about, is to say that 
if you do something wrong, even if we don't have proof beyond a 
reasonable doubt, you should lose some of the money that you 
might get otherwise? Isn't that what these bills are really 
about, Dr. Yoest?
    Dr. Yoest. Yes, sir. I am very glad that you read from 
Gonzales v. Carhart because the ban on partial-birth abortion 
was a very hotly contested issue in our country, and the 
Supreme Court was very clear in upholding its legality.
    And I didn't have a whole lot of time to elaborate on Dr. 
Deborah Nucatola's scoffing at the partial-birth abortion law, 
but after she made the quote about the fact that she thought 
this was basically just kind of a guideline for her behavior, 
she went on to say that she felt that intent came into play in 
that if she didn't intend to perform a partial-birth abortion, 
that it didn't count.
    But in actual fact, to switch back to talking about the 
law, aside from common decency, the law is very clear that 
intent doesn't let you off the hook from performing a partial-
birth abortion.
    Mr. Griffith. And there should be punishments, not only the 
criminal punishments but punishments to those providers who 
allow people to do these things by taking away their monetary 
sources.
    I mean, if somebody determines that they are charging 
excessively or something else, they have the right to take away 
their reimbursement. Shouldn't that be the same case if there 
is good reason to believe that they, in fact, have violated the 
law whether with a baby that is born alive or by doing a 
partial-birth abortion in order to get more organs to harvest 
from our babies?
    And I don't know this, so I want to track this down. I 
tried looking it up and I couldn't find it. Ms. Waxman, were 
you in favor of partial-birth abortion? Did you argue against 
either publicly or as a part of your law class against partial-
birth or for partial-birth?
    Ms. Waxman. I was not part of that debate.
    Mr. Griffith. You were not part of that debate at all. OK. 
I appreciate that. Thank you. I wanted to have that out there.
    These are very serious issues, and it is not a matter of 
determining guilt beyond a reasonable doubt. It is trying to 
decide whether or not somebody is doing it the way the law 
intends it to be done or not to be done and whether or not 
taxpayer dollars should be used to reimburse those people for 
doing those acts.
    And I appreciate both you, Mr. Mattox, and you, Dr. Yoest, 
for being here, and also you, Ms. Waxman, because in this 
country we always have the opposing side, and that is the way 
it ought to be.
    Thank you very much, and I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from Florida, Mr. Bilirakis, 5 
minutes for questions.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. Very important hearing.
    Mr. Mattox, in your testimony you mentioned that Planned 
Parenthood has had great financial success in Medicaid. Unlike 
other Medicaid providers, they have been able to avoid some of 
the oversight and corrective actions that most Medicaid 
providers would expect. Can you elaborate on what they have 
been doing, and maybe what they have been getting away with all 
these years?
    Mr. Mattox. Sure. First of all, Planned Parenthood has 
received over the last 10 years about $4 billion in taxpayer 
funds. And the HHS OIG does investigations every so often of 
family planning programs. Usually those are not as to a 
specific provider, but in a few instances they are.
    And what they have found in just 45 recent public audits, 
and these are all publicly released, we have a report that was 
just out this morning that details all of the publicly released 
audits, and what that shows is that Planned Parenthood 
specifically has been pointed to as having overbilled the 
Government by $8.5 million in those publicly released audits 
from HHS OIG and some from State sources.
    In addition to that, you have another $4.3 million that 
Planned Parenthood Gulf Coast paid to the Justice Department 
when the Obama administration Justice Department said that they 
thought that Planned Parenthood had overbilled the Federal 
Government in the Texas Women's Health Program and the Texas 
Medicaid.
    So in addition to that, you have a number of False Claims 
Act cases that ADF and others have represented around the 
country representing whistleblowers from Planned Parenthood, 
these are individuals who have worked at Planned Parenthood for 
a number of years, Abby Johnson, Sue Thayer in Iowa, and others 
who have alleged tens of millions of dollars in Medicaid fraud, 
and there are several of those cases that are ongoing around 
the country.
    So there is a substantial reason for the taxpayers to be 
very concerned this is an organization that is able to profit 
off of Medicaid. As a matter of fact, if you look at their 
annual reports, again, you see $127 million in excess revenue 
last year. We have heard testimony earlier that Medicaid is not 
usually a program that you can profit from, but it seems that 
Planned Parenthood has found a way.
    Mr. Bilirakis. Thank you.
    Next question. For you, Mr. Mattox: Federal law states 
that, quote, ``No alteration of the timing, method, or 
procedures used to terminate the pregnancy was made solely for 
the purpose of obtaining the tissue,'' end quote.
    In the videos, the Planned Parenthood representative seemed 
to almost be boasting that they are flaunting the law. Does 
that seem to be the case to you? And do you think that this 
should be sufficient grounds to terminate Medicaid funding?
    Mr. Mattox. Having watched the videos, the full videos, I 
have seen those quotes, and that does seem to certainly violate 
Federal law. That was a bipartisan law on how we are going to 
handle this fetal tissue donation question, and Congress agreed 
that we are not going to have people changing the way they are 
doing abortions for that purpose, and it certainly seems that 
is the case. And as a matter of fact, Cecile Richards in her 
letter of August 27 stated that that was the case, that they 
would adjust the procedures.
    So I am not sure. Setting the videos aside, we have the 
current statement from the CEO of Planned Parenthood saying 
that they would adjust the procedures in order to obtain better 
tissue.
    Mr. Bilirakis. Thank you.
    And Representative Griffith touched on this, but I want to 
elaborate a little bit.
    Dr. Yoest, does the Planned Parenthood video show that they 
are willing to do partial-birth abortions in defiance to the 
law? Can you explain these types of abortion procedures, what 
they are?
    Dr. Yoest. Yes, sir. If I could connect it to your previous 
question of Mr. Mattox. One of the things that is most 
troubling, through this whole process I think many of us have 
become much more familiar with abortion procedures than we 
would ever care to be. But the hard truth of the matter is that 
in order--the reason it is so relevant, this question of them 
changing their procedures, is that in order to get useable 
tissue they cannot use the most lethal and most--forgive me--
most effective way of ending the baby's life by using a 
chemical called Digoxin that kills the baby before it is born.
    So by moving away from using that procedure and altering 
their technique in order--because, excuse me, I failed to 
mention that Digoxin then makes the baby's tissues unusable for 
harvesting and selling it--and so that is what moves them 
toward doing these kinds of procedures that are much more 
likely to result in partial-birth abortion and live births.
    And so I think that is a really important point for all of 
us to understand, that there is a cohesive whole here in terms 
of the violation of the law, the targeting of the organs that 
they want, of maintaining tissues that are the most financially 
marketable for them.
    Mr. Bilirakis. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from Missouri, Mr. Long, 5 
minutes for questions.
    Mr. Long. Thank you, Mr. Chairman.
    And thank you all for being here today.
    Ms. Waxman, have you watched any of these videos, edited, 
unedited, whatever you want to call them, but the recent videos 
that have come out----
    Ms. Waxman. I saw them today.
    Mr. Long [continuing]. At Planned Parenthood? I am sorry?
    Ms. Waxman. I saw excerpts today.
    Mr. Long. Does it bother you to watch those?
    Ms. Waxman. Let's say all medical procedures bother me. 
When I hear doctors talk about many different kinds of things, 
I am uncomfortable. So, yes, it is uncomfortable.
    Mr. Long. So it was disturbing to watch them.
    Ms. Waxman. I would say uncomfortable.
    Mr. Long. Yes. I would say you are right, because I didn't 
watch them today. I have watched them before. I was watching 
you. You have got a video monitor 90 degrees to your right, you 
have got a video monitor 90 degrees to your left, and you 
looked up once or twice.
    Ms. Waxman. I don't think that is true, Your Honor. I did. 
I watched them. And I have seen them before.
    Mr. Long. But it is disturbing to you is my point. I am not 
getting on you for not doing it. Some people can't watch them. 
They are very disturbing. So you are disagreeing with what I 
said?
    Ms. Waxman. I think I answered the question. I do find them 
uncomfortable.
    Mr. Long. I am not trying to be argumentative at all. I 
don't know where you think I am going. You act like you are 
defensive, like I am trying to be----
    Ms. Waxman. OK. I find them uncomfortable. I think I said 
that.
    Mr. Long. Yes. Sure. A lot of people do, and there is 
nothing wrong with that. I am not trying to trap you. I am not 
a lawyer. I don't play one on TV.
    Ms. Waxman. We are on the same page.
    Mr. Long. I have got a friend that can't watch those videos 
either. And the reason--I know nothing about your background, 
but I do know his background--the reason he can't watch those 
videos is that when his mother became pregnant with him at a 
young age, her family, her friends told her to abort him, said 
that your life will be a lot better, you will have a very hard 
life if you carry this child to term. And thankfully she didn't 
listen to her family and her friends and people that told her 
to abort the child, and today he is a United States 
Congressman. He is not the one sitting before you. It is not my 
story. But he is a United States Congressman.
    He says, ``I cannot watch these videos,'' he said, 
``because when I watch them, I see myself. I see myself as that 
baby that my mom thought about aborting,'' and it is extremely 
upsetting to him. And I think that it is extremely upsetting to 
a lot of people.
    And like I said, I am not trying to be argumentative with 
you, but I noticed, I was watching you as they were playing it, 
and you, as you admitted, you know, they are kind of tough to 
watch.
    Ms. Waxman. May I respond?
    Mr. Long. Not yet. If I have time at the end, I will be 
glad for you to.
    When I came up to this hearing, it has been a few hours ago 
now, but when I came up to this hearing the elevator door 
opened as we were getting on the elevator down on G3 to come up 
here to floor 1, and a lady--I didn't even focus on her, but 
she was pushing a baby carriage. And she had a screaming--I 
guarantee you, I am not a doctor, I don't know how old the kid 
was, but he was less than a month old, all red, screaming. The 
Congressman that got on with me, as she got off pushing her 
baby in the baby carriage, said that is the most beautiful 
sound in the world.
    And I graduated high school in 1973. In 1973 Roe v. Wade 
came down, the ruling. And the people say: Oh, the pro-lifers 
are doing this for everything. I didn't understand abortion 
when I was a senior in high school when they ruled it legal at 
the Supreme Court. I still don't. I don't make any apologies 
for that. But seeing that young baby as we come into here, it 
just, you know, a few months ago, would have been OK to take 
that life. I make no apologies, but I don't understand that. 
And so when we have hearings like this, it is difficult for me.
    I was at a luncheon today, Speaker Pelosi was there, Gene 
Green was there, the ranking member, his wife was there. It was 
the 23rd Annual Congressional Families Cancer Prevention 
Luncheon. I sat next to my daughter, who is 26 years old, that 
had her last chemotherapy treatment on August 10 of this year. 
She is doing great. She has a PET scan coming up here, and we 
think she is fine.
    But to think of what people do to save themselves and to 
prevent cancer and to treat cancer once they have cancer and to 
fight for life, the emcee was Jennifer Griffin of Fox News, 
national security correspondent, 46 years old, I believe, 
breast cancer. The other lady, I can't call her name right this 
second, but a cook on TV, 49 years old. But when you see the 
emotion that the people in the room, Democrat, Republican, 
rallied together for the 23rd time, 23rd luncheon, to fight for 
life, it just, to me, it is just a real shame that it is OK to 
kill a child 3 months before it is born, but you kill it 3 
months after it is born and you are going to go to jail. And I 
just, you know, I am sorry, but I don't get that.
    There was a lady that had an opportunity to abort a United 
States Congressman, didn't do it. I don't know how many 
Congressmen have been aborted over the years, how many 
Senators, how many Presidents, how many brain surgeons, 
whatever. But those of us that people want to call us pro-life 
or whatever, we don't come to it because we are Republicans, we 
don't come to it for political reasons. Some of us just don't 
understand stopping a beating heart.
    And with that, Mr. Chairman, I yield back.
    Mr. Pitts. I thank the gentleman.
    And I now recognize the gentlelady from North Carolina, 
Mrs. Ellmers, 5 minutes for questions.
    Mrs. Ellmers. Thank you, Mr. Chairman.
    And, again, I thank the panel for being with us today.
    Dr. Yoest, it is good to see you. And I want to ask you a 
couple of questions. And my colleague, Mr. Griffith from 
Virginia, was touching on some of the discussion and some of 
your testimony regarding Dr. Nucatola. In the quote that she 
had made, quote: ``The Federal abortion ban is the law and the 
laws are up to interpretation,'' unquote.
    Now, I think you clearly state that that is not your view, 
that it is not just up for interpretation, that it is very 
clear. Am I correct?
    Dr. Yoest. The law is very clear about what it has banned.
    Mrs. Ellmers. And I did want to touch back on the comment 
you made about the Supreme Court and their review of the 
current partial-birth abortion ban and upholding it. Is that 
correct?
    Dr. Yoest. Yes.
    Mrs. Ellmers. OK. So, you know, like my colleague Mrs. 
Blackburn, I have one of the bills. And, you know, just for the 
panel and the discussion of clarifying the situation for our 
States, I just want to state that I would like to say to the 
panel that my draft bill seeks to clarify existing State 
authorities over providers serving Medicaid patients so that 
those States who suspect a provider may have violated the 
partial-birth abortion ban can immediately end their State's 
relationship with that provider. If a provider was proven 
guilty under the draft law, he or she would also be mandatorily 
excluded from the Federal healthcare program.
    I don't think that is unreasonable to allow States to 
provide that ability. I believe that States should have those 
rights.
    Dr. Yoest, have you seen or read anything recently over 
these past few weeks that causes you to think that some 
providers are, indeed, violating the partial-birth abortion ban 
and billing Medicaid for it?
    Dr. Yoest. Well, I think, you know, there has been a lot of 
conversation about the context and the editing of the videos. 
But I think that in looking at the full totality of Dr. 
Nucatola's testimony, I just don't see that context is helpful 
at all when she is quite clear that she starts the day with a 
list of organs that she is targeting, and then she describes a 
procedure that she uses in order to ensure that those organs 
that she is harvesting are then usable.
    Mrs. Ellmers. You know, and I would just like to say, as a 
nurse and dealing with these issues of, you know, taking care 
of patients and dealing in the world of health care, I agree. 
As difficult as it is to watch the videos, and as difficult as 
it is to hear her describe in such a matter-of-fact manner how 
she kind of tallies up the day and moving forward--my husband 
is a general surgeon, and we have many discussions about the 
surgeries that he will have that day, and, you know, what his 
hopes are, obviously, to take good care of those patients and 
hopefully everything will go well.
    That is what I hear her talk about, only from a perspective 
of, again, retrieving fetal body organs in the best possible 
manner that she can do that. And it is chilling to me, and it 
truly is sickening to hear that because of the matter-of-fact 
manner in which she does that.
    Furthermore, Dr. Yoest, you noted in your testimony and I 
will quote what you had said: ``Planned Parenthood has a track 
record of opposing partial-birth abortion bans.'' And I do 
believe that you have stated that and that in the past that 
this is something that they have done. And I will just further 
quote you: ``States should be permitted to withdraw or deny 
Medicaid funding to individuals and entities that violate the 
letter and spirit of the widely supported laws against 
infanticide,'' unquote.
    In addition to the bills that we are considering, that my 
colleague from Tennessee and I are moving forward in the 
committee this week, and, you know, with our chamber, what 
other Federal approaches would you recommend we consider to 
better protect the lives of our most vulnerable young 
Americans?
    Dr. Yoest. Well, I think that in addition to--well, first, 
can I just say that we do appreciate both what you and 
Congresswoman Blackburn are doing with your bills and that we 
just very much appreciate that.
    There is also the bill that I believe will soon be 
introduced by Congressman Franks to add criminal penalties to 
the Born-Alive Infants Protection Act. And then I believe there 
is also another bill to be soon introduced by Congresswoman 
Black to propose a moratorium on Planned Parenthood funding.
    So I think that there is a lot of conversation going on 
right now, and I think that there are quite a few different 
approaches that we can take that could be a productive 
approach.
    Mrs. Ellmers. Thank you so much.
    And, Mr. Chairman, I yield back the remainder of my time. 
Thank you.
    Mr. Pitts. The Chair thanks the gentlelady.
    Now recognizes the gentlelady from Colorado, Ms. DeGette, 5 
minutes for questions.
    Ms. DeGette. Thank you very much, Mr. Chairman. And I want 
to thank you for your comity in allowing me to waive onto this 
committee. It is a tough topic, and it is important.
    The title of this hearing is ``Protecting Infants: Ending 
Taxpayer Funding for Abortion Providers Who Violate the Law.'' 
Ms. Waxman, under current law, the Federal Government right 
now, if somebody who violates any law is found by due process 
to violate that law, Federal funding can be cut off right now 
under current law, correct? Yes or no?
    Ms. Waxman. Yes, if what we are talking----
    Ms. DeGette. Thank you.
    Ms. Waxman. Yes.
    Ms. DeGette. So the real issue is, has Planned Parenthood 
violated the law, correct?
    Ms. Waxman. That would be the issue.
    Ms. DeGette. OK.
    Now, at the beginning of this hearing we were shown some 
small film snippets. But I just want to ask, Dr. Yoest, you, 
yourself, did not make those film snippets, correct? Yes or no?
    Dr. Yoest. No, ma'am.
    Ms. DeGette. And, Mr. Mattox, you, yourself, did not make 
those films, correct? Yes or no?
    Mr. Mattox. I did not create them. I have watched them.
    Ms. DeGette. You have watched them.
    And, Dr. Yoest, you and your staff also watched film clips 
on the Internet, yes or no?
    Dr. Yoest. We have watched----
    Ms. DeGette. You have watched the films on----
    Dr. Yoest [continuing]. The unedited ones.
    Ms. DeGette. You watched what you are told are unedited 
films online, yes? Correct?
    Dr. Yoest. Yes.
    Ms. DeGette. But you don't know for a fact--you didn't make 
those films, so you don't know from personal experience that 
they are unedited, correct? Yes or no? I mean, you didn't make 
the film, so you don't know if they are edited or not?
    Dr. Yoest. No, I can't. You are right, I can't.
    Ms. DeGette. And same with you, Mr. Mattox, you didn't make 
the films, right?
    Mr. Mattox. I did not make the films.
    Ms. DeGette. So, Mr. Chairman, we have been told, the 
minority has been told on Oversight and Investigations and this 
committee that we have been provided with all of the unedited 
films online, but we haven't had the person from the Center for 
Medical Progress who made those videos here. He is not here 
today. We haven't had him in the committee. On the Oversight 
Subcommittee, we take testimony under oath. And what I would 
like to see--and I see my chairman is here, Mr. Murphy--what I 
would like to see is, I would like to see him come in to the 
committee under oath and talk to us about how he made those 
videotapes.
    But let's accept the assertions from our witnesses that the 
unedited videotapes are online, let's accept that. So today, 
Mr. Chairman, what we did, this hearing started out with 
several film clips. The first film clip was of a baby who 
apparently was not an aborted fetus. It was a baby named Walter 
Fretz, who had been born prematurely at 19 weeks. And along 
with a picture of that baby, there was a woman talking. She 
apparently was a woman who used to work for an organization 
that was a procurement technician talking about late-term 
abortion procedures, which was totally unrelated to the baby, 
Walter Fretz, who was shown.
    And to make this even more horrifying to me as a mother, 
apparently, Walter Fretz's mother did not agree that her baby, 
her precious baby, could be used in this way.
    So that was the first video clip that we were shown today 
to give us the impression that Planned Parenthood was somehow 
harvesting organs from this little baby. I can hardly get over 
that. The second and third and fourth clips were very small 
clips from what are many, many, many hours of videotapes that 
were apparently taken.
    So the Oversight and Investigations Democrats reviewed all 
of the videotapes that we were given, which the majority tells 
us are all of the videotapes. There was no illegal activity 
found. There was no illegal activity found in what we saw.
    When we pointed that out today, you know what the majority 
says to us? They say, ``Well, that is because the O&I 
investigation is not completed.'' Well, I would ask you, Mr. 
Chairman, and I would ask you, Chairman Murphy, if there is 
more information that we haven't been given in order to have 
this legislative hearing today, I would suggest that the 
majority should produce it to us. Because otherwise all we are 
going on is allegation and innuendo.
    And the lives of millions of American women are being put 
at stake at this: 4.2 million visits to Planned Parenthood 
centers last year, not for abortions, for mammogram, for 
cervical cancer screening, for well-women screening, 4.2 
million visits last year are in jeopardy because of innuendos 
and allegations and videotapes that, for the purposes of the 
hearing today, were highly edited, misconstrued, and doctored. 
And that is why we are so mad.
    And, again, I thank you for letting me talk. I thank you 
for doing this. But I think we should take this very, very 
seriously.
    Mr. Pitts. The Chair thanks the gentlelady.
    Dr. Murphy, you can respond briefly.
    Mr. Murphy. Mr. Chairman, I just want to say that we will 
continue to investigate this thoughtfully as you and I do with 
the Oversight and Investigations Committee, continue to invite 
you to be thoroughly involved, will continue to share all 
information together, each side will do that.
    There is a lot to review here. I will restate, as I said 
before, it is premature for any of us to draw conclusions. 
There is a lot to review and investigate this. As you know, we 
do with all of our hearings gather information and we follow 
the facts where they take us, and we will continue to be 
thoughtful in our approach.
    Ms. DeGette. I certainly will look forward to that hearing.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman, Dr. Bucshon, 5 minutes for 
questions.
    Mr. Bucshon. Thank you, Mr. Chairman.
    I just want to say, I am a physician who has operated on 
premature babies as young as 23 weeks gestation. In fact, the 
smallest baby I operated on in my practice weighed only 650 
grams. I did a specific operation call a patent ductus ligation 
of premature babies. And so I find the discussion, the 
callousness of the discussion, particularly appalling in the 
videos based on that, as well as the fact that I am a father of 
four and a pro-life person.
    But also as a physician, I take access to health care very 
seriously, and it is very important to me. And that is why I 
think it is such a ridiculous argument that the minority makes 
that Republicans in some way want to limit access to health 
care for women. That is a debunked argument. It has failed 
politically and it has failed factually many, many times. But 
they continue to make it because that is the only thing they 
have.
    So with that, I want to also outline some statistics on 
Planned Parenthood about access to health care. And this is 
their own data. They treat just 2 percent of the Nation's women 
for any reason, 2 percent. Ninety-eight percent of women get 
their health care other places other than Planned Parenthood.
    They also don't offer women some basic primary care. 
Mammograms were just mentioned. But, Ms. Waxman, does Planned 
Parenthood perform mammograms?
    Ms. Waxman. You know, my own doctor doesn't----
    Mr. Bucshon. That is a yes-or-no answer. Does Planned 
Parenthood----
    Ms. Waxman. It is no, as most primary care don't.
    Mr. Bucshon. So Ms. DeGette's statement was false, they 
don't perform mammograms, OK?
    Ms. Waxman. They do breast exams, however.
    Mr. Bucshon. Well, any physician can do that. In fact, you 
know it is the law that if a woman comes into your office and 
they haven't had a breast exam within a year, even a 
cardiovascular surgeon must perform a complete breast exam? Do 
you know that that is true?
    Ms. Waxman. I don't, but that is great.
    Mr. Bucshon. That is the fact.
    Ms. Waxman. That is great.
    Mr. Bucshon. Yes. Do they provide cardiovascular blood 
tests for women?
    Ms. Waxman. I don't know.
    Mr. Bucshon. They don't, I will tell you.
    Do they offer bone mass measurements for women, which is 
very important, as you know, because women are at risk for 
osteoporosis? Do they do that?
    Ms. Waxman. I don't know.
    Mr. Bucshon. The answer is no, they don't.
    And I think you do know this one: Their cancer screenings 
have decreased by half over the past 10 years.
    Ms. Waxman. I don't know that, either.
    Mr. Bucshon. The answer is yes, it has.
    So the argument here, and I am speaking from a physician's 
standpoint, this is purely about pro-choice people trying to 
protect the organization that performs, what, 40 percent of the 
abortions in the United States. This is not about women's 
health care. Republicans want all women to have access to 
quality, affordable health care regardless of their ZIP code, 
regardless of what socioeconomic status they are. That is just 
a false argument.
    And to stand here and try to say that if we don't redirect 
money to health centers that can be funded by the Federal 
Government and that Planned Parenthood loses their funding that 
all of a sudden women aren't going to have access to health 
care is just a false argument. I mean, it is just not true.
    The other thing is, you know, I looked up the laws in 
Indiana about if you did this to a pet, you know, if you did 
some of the things described in these videos to, you know, an 
animal that was born alive and you destroyed them and took 
their body parts, in Indiana you would go to prison for 180 
days and $1,000 fine. That is for a pet. And so to argue that 
we shouldn't have--that this should be something we should just 
callously talk about, about a human being, is ridiculous.
    So I just think that we need to seriously look at our 
country and whether or not, as a people, we are willing to 
accept this activity, and quit trying to protect people that 
are doing things that really are morally and potentially 
legally not correct.
    I would yield my last 30 seconds to anyone that wants to 
make any final comments.
    Mr. Bucshon. I yield to Mrs. Blackburn.
    Mr. Pitts. The Chair recognizes Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I appreciate 
that we have spent the time on this issue.
    As Ms. DeGette was questioning Dr. Murphy about where we 
continue, I think it is important to note, we are at the 
beginning of an investigation and we are just starting this 
process. We do know from Planned Parenthood's own statistics 
that they perform over 300,000 abortions a year. Compare that 
to the 1,800 adoption referrals that they make and the 18,000 
prenatal health visits they give for women.
    So, you know, as all of this has tried to be made a 
discussion about the videos, I think it is imperative that we 
refocus this, Mr. Chairman. We are here to make certain that 
women and children are protected and that unborn children, 
children that are yet unborn, have the right to life. That is 
the point of this discussion.
    And I yield back to the gentleman.
    Mr. Pitts. The Chair thanks the gentlelady.
    Mr. Bucshon. I yield back.
    Mr. Pitts. That concludes the questions of the members.
    We will have some follow-up questions that we will send to 
you in writing. We ask that you please respond promptly.
    I remind members that they have 10 business days to submit 
questions for the record, and so they should submit their 
questions by the close of business on Thursday, October 1.
    I want to thank the members, the witnesses, everyone, for 
staying late and long. You have been very patient, but this is 
a very important issue.
    We have a UC request?
    Mr. Green. Yes.
    Mr. Pitts. Go ahead.
    Mr. Green. OK. Mr. Chairman, I would like to ask unanimous 
consent to place into the record a Texas Policy Evaluation 
Project research paper, since Texas' coverage has been an 
issue. Also, an article from healthaffairs.org, ``How Texas 
Lawmakers Continue to Undermine Health Care.'' And also from 
the Health Affairs organization, ``Planned Parenthood, 
Community Centers, Getting the Facts Straight.''
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. And without objection, the subcommittee is 
adjourned.
    Mr. Burgess. Mr. Chairman, I have a unanimous consent 
request.
    Mr. Pitts. Go ahead.
    Mr. Burgess. So the Texas Women's Health Program Provider 
Survey: Patient Capacity Report, January 7, 2013, from the 
State of Texas; National Review, ``What Texas PolitiFact Won't 
Admit About the State's Defunding of Planned Parenthood''; and 
the Daily Signal, ``If Planned Parenthood Loses Government 
Funding, Here's a Map of Healthcare Clinics That Could Take its 
Place.''
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. With that, the subcommittee is adjourned.
    [Whereupon, at 6:52 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Eliot L. Engel

    Thank you, Mr. Chairman.
    I think it is important that we recognize why today's 
hearing is taking place. Despite its incendiary title, the goal 
of this hearing is not to ``protect'' anyone. If it were, we 
would not be debating the merits of an organization that 
provides life-saving care to more than 2 million Americans, 
most of whom have nowhere else to turn.
    We are here because the Majority has again chosen to spend 
precious legislative days reigniting the same tired battles of 
years past, and bringing our Government to the brink of a 
shutdown, all for the purpose of rolling back women's ability 
to control their own health and bodies.
    This time, their attacks are focused on Planned 
Parenthood--an organization that, despite contrived and 
unsubstantiated allegations to the contrary, has not violated 
any State or Federal laws, but has provided breast exams, 
cervical cancer screenings, HIV tests, and other invaluable 
services to our country's poorest and most underserved women 
and men.
    Some have argued that other providers, such as community 
health centers, could fill the void that would be created if 
Planned Parenthood clinics closed their doors and offer these 
patients the same level of care.
    More than half of Planned Parenthood health centers are 
located in rural areas, medically underserved areas, or health 
professional shortage areas. My district contains such 
``shortage areas,'' where access to health care is already too 
limited.
    It is not difficult to understand, then, why the American 
Public Health Association called the notion that community 
health centers could simply take on all of the patients who 
rely on Planned Parenthood ``ludicrous.''
    It is also not difficult to imagine how unlikely it will be 
that women and men in these underserved areas would be able to 
access life-saving breast cancer screenings, cervical cancer 
screenings, STI tests and HIV tests in a timely manner if 
Planned Parenthood centers were to disappear.
    Make no mistake: the bills under consideration today will 
do nothing to ``protect'' our constituents. On the contrary, 
they will put the health of our country's most vulnerable women 
and men in jeopardy.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               [all]
                               
                               
</pre></body></html>
